<html>
<title> - OVERSIGHT ON THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 109-1027]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1027
 
             OVERSIGHT ON THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               Before the

              SUBCOMMITTEE ON CLEAN AIR, CLIMATE CHANGE, 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works


Available via the World Wide Web: http://access.gpo.gov/congress.senate


                     U.S. GOVERNMENT PRINTING OFFICE
42-272 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                                 ------                                

     Subcommittee on Clean Air, Climate Change, and Nuclear Safety

                   GEORGE V. VOINOVICH, Ohio Chairman

CHRISTOPHER S. BOND, Missouri        THOMAS R. CARPER, Delaware
JIM DeMINT, South Carolina           JOSEPH I. LIEBERMAN, Connecticut
JOHNNY ISAKSON, Georgia              FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              BARACK OBAMA, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 9, 2006
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    12
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     7
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     4
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     5
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey    11
Obama, Hon. Barack, U.S. Senator from the State of Illinois......     9
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Diaz, Nils J., Chairman, U.S. Nuclear Regulatory Commission 
  Accompanied by: Edward McGaffigan, Jr., Commissioner; Jeffrey 
  S. Merrifield, Commissioner; Gregory B. Jaczko, Commissioner; 
  and Peter B. Lyons, Commissioner...............................    13
    Prepared statement...........................................    47
Responses to additional questions were not submitted at the time 
  of print.

                          ADDITIONAL MATERIAL

Addendum to NRC's Testimony for March 9, 2006 Oversight Hearing..    54
Report, Details from the Nuclear Regulatory Commission on the 
  Safety 
  Culture Work Environment Special Inspection at Salem and Hope 
  Creek..........................................................    59
Charts:
    IG's NRC Culture Survey Results Overall Strengths and 
      Opportunities..............................................    56
    FY 2006 Technical Staff Hires and Losses.....................    57
    Announced COL Applicants; Data Based on Received Letters as 
      of 
      March 7, 2006..............................................    58


             OVERSIGHT ON THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                        THURSDAY, MARCH 9, 2006

                               U.S. Senate,
         Committee on Environment and Public Works,
     Subcommittee on Clean Air, Climate Change and Nuclear 
                                                    Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 628, Senate Dirksen Building, Hon. George V. Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Inhofe, Isakson, Carper, 
Jeffords, Clinton, Lautenberg, and Obama.
    Senator Voinovich. This meeting will come to order.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    I was thinking, on the way over here this morning, that so 
often what we do here in the Senate and what you do in the 
Nuclear Regulatory Commission sometimes gets lost in the weeds 
and we don't look at what the big picture is about. I think it 
is important for us to understand that what you are doing and 
our oversight here is so important to the American people in 
terms of our fulfilling what I like to refer to as the second 
declaration of independence, and that is become less reliant on 
foreign sources of energy.
    I think we all know, that nuclear power produces a great 
deal of energy in this country, and that if we are going to get 
away from the use of natural gas and move toward nuclear power 
and clean coal technology and some of the other things that our 
ability to do that is going to be very, very important to the 
American people, who today are suffering with the highest 
natural gas costs that we have ever had, that are impacting on 
their respective budgets at home, that they are giving up 
things in order to be able to pay their bills.
    This Congress has increased dramatically the LIHEAP program 
because of the fact that these folks are not able to pay their 
gas bills. Businesses in this country that were very successful 
are being negatively impacted and we are losing thousands of 
jobs here in this country as businesses move overseas, because 
the public doesn't understand that natural gas is part of the 
feedstock that's so important to them.
    So I think that it is important that we all understand that 
what we are doing is very important and that what you do in the 
Nuclear Regulatory Commission has a great deal to do with the 
future of this country, including the environment. Because as 
we know, nuclear energy doesn't get into the problems that 
Senator Jeffords and I have been talking about for years in 
terms of emissions from NOx, SOx, mercury and the one we have 
debated a bit, and that is greenhouse gases.
    So I am pleased to have all of you here today. I know it is 
a busy week, the NRC's 18th Annual Regulatory Information 
Conference is being held this week and a bunch of folks are in 
for it. This hearing continues this committee's strong 
oversight of the Commission. This is the eighth in a series of 
oversight hearings that began in 1998, when Senator Inhofe was 
chairman of this subcommittee. I thank the chairman for his 
leadership on this issue, as strong oversight of the NRC is 
critical to the welfare of the American public.
    This is also the third hearing the Committee has held this 
year on the important issue of energy. We held a hearing on 
natural gas prices, and Chairman Inhofe held a hearing last 
week, and I was unfortunately able to attend, on Yucca 
Mountain, which is a part of all of this. The energy challenges 
that we face today and into the future threaten our global 
competitiveness. I have already talked about the impact that 
this is having on our brothers and sisters throughout America.
    Nuclear power provides about 6 percent of the electricity 
consumed in my State and about 20 percent nationally. It is 
emission free power. By increasing its use we can help meet our 
energy needs, our economic needs and improve the quality of our 
air. That is why this committee spent a great amount of time 
last year on nuclear-related legislation. In addition to 
holding an oversight hearing and a closed hearing on nuclear 
security, several provisions to provide for the safe and secure 
growth of nuclear power were enacted as part of the Energy 
Policy Act of 2005. These include three bills that Chairman 
Inhofe and I introduced. I will not go into the details of it, 
but you asked for them and we got it done. We know that because 
of the Energy bill's passage, we understand that in the next 2 
to 3 years, you are going to have 11 applications for the 
construction of new nuclear power plants in this country.
    In addition to that, the Commission must continue to deal 
with license renewals and increased generation capacity for 
existing plants, something that a lot of folks do not know. 
They upgrade their plants so they can become more efficient and 
generate more electricity. And as your workload increases over 
the next years, I become increasingly concerned about the 
availability of personnel. That is another committee that I 
chair, oversight of Government Management and the Federal 
Workforce. You have to have the right people, with the right 
skills and knowledge at the right place at the right time. If 
we do not have them, we are in trouble.
    I am particularly interested in hearing from the Commission 
about the folks you have lost and what you are going to do 
about bringing in some new people. I think that as an aside, 
the Commission's needs are a prime example of why this Congress 
should pass the PACE legislation, Protecting America's 
Competitive Edge, which will be a Sputnik-like response, to 
Sputnik 50 years ago, really doing something about math, 
science and engineering, getting the people we need to get the 
job done, not only for you, but for a lot of other governmental 
agencies where we don't have folks on board because they are 
not out there.
    So we are going to focus on overseeing your work, and I 
appreciate the private meetings that we have had, Chairman 
Diaz. I look forward to hearing what you have to say here this 
morning, and I'd like to then call upon Senator Inhofe for his 
statement.
    [The prepared statement of Senator Voinovich follows:]

     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio

    The hearing will come to order. Good morning and thank you all for 
coming.
    I am pleased to have all five members of the Commission here today. 
Chairman Diaz and Commissioners McGaffigan, Merrifield, Jaczko, and 
Lyons--welcome. We appreciate all of you taking time out of your busy 
schedules to be here this morning especially since NRC's 18th Annual 
Regulatory Information Conference is being held this week.
    Today's hearing continues this committee's strong oversight of the 
Nuclear Regulatory Commission. This is the eighth in a series of 
oversight hearings that began in 1998 when Senator Inhofe was chairman 
of this subcommittee. I thank the chairman for his leadership on this 
issue, as strong oversight of the NRC is critical to the welfare of the 
American public.
    This is also the third hearing that the committee has held this 
year on the important issue of energy. I held a hearing on natural gas 
prices, and Chairman Inhofe held a hearing last week that I was 
unfortunately unable to attend on Yucca Mountain. The energy challenges 
that we face today and into the future threaten our global 
competitiveness. High natural gas prices are having a devastating 
impact on our constituents across the country, and we need to do 
everything we can to bring these costs down. I am calling for a 
``Second Declaration of Independence'' to make us less dependent on 
foreign sources of energy, and nuclear power plays an integral role in 
fulfilling our declaration.
    Nuclear power provides about 6 percent of the electricity consumed 
in my State and about 20 percent nationally. It is emission free power, 
and by increasing its use, we can help meet our energy needs, be less 
reliant on natural gas, and improve the quality of our air.
    That is why this committee spent a considerable amount of time last 
year on nuclear related legislation, in addition to holding an 
oversight hearing and a closed hearing on nuclear security. Several 
provisions to provide for the safe and secure growth of nuclear power 
were enacted as part of the Energy Policy Act of 2005. These include 
three bills that Chairman Inhofe and I introduced: Nuclear Safety and 
Security Act (S.864), Price-Anderson Amendments Act (S.865), and 
Nuclear Fees Reauthorization Act (S.858). We were also able to secure 
$41 million above the President's request for the NRC through FY 2006 
appropriations for security and human capital activities.
    The bottom line is that we have provided every legislative and 
funding provision that NRC requested and more. All of these provisions 
have led the Commission to project that they will receive applications 
for 11 or more new plants in the next 2 to 3 years. This is a huge 
challenge for an Agency that has not seen this type of major licensing 
actions in the last 25 years or so.
    In addition to new reactors, the Commission must continue to deal 
with license renewals and increased generation capacity for existing 
plants, security assessments and regulations, licensing Yucca Mountain, 
and the day-to-day regulatory activities for the Nation's 103 operating 
plants. As the Commission's workload increases over the next few years, 
I have become increasingly concerned about the availability of 
qualified personnel especially when a significant number of experienced 
employees will be lost due to retirement.
    I am particularly interested in hearing from the Commission about 
the number of employees they have lost over the past few years and 
their retirement situation today. I understand that the NRC has a goal 
of hiring 350 people annually for the next several years, and I would 
like to know how the new Human Capital Provisions that we recently 
passed are being utilized in this effort.
    As an aside, the Commission's needs are a prime example of why 
Congress must pass the Protecting America's Competitive Edge through 
Energy Act of 2006 (S.2197). This legislation is aimed at implementing 
the recommendations of the National Academy of Sciences report, 
``Rising Above the Gathering Storm''-- which focuses on improving our 
Nation's competitiveness by increasing our Nation's research capacity, 
emphasizing math and science education, and producing more scientists 
and engineers.
    Our subcommittee will focus even more this year on overseeing the 
NRC due to the important role they play in our nation's energy future 
and their increased workload and resource constraints. I look forward 
to hearing from the Commissioners and spending some quality time this 
morning fully exploring these important issues.
    We invited only the Commissioners for today's hearing to 
accommodate the subcommittee's examination of the Commission's progress 
on a full spectrum of areas. I anticipate that there will be at least 
one more NRC oversight hearing this year that will include other 
witnesses. At the next hearing, I am specifically interested in getting 
a status report on all of the issues that we discuss today.
    Notwithstanding some of their high profile activities, NRC and the 
industry must keep safety at the center of all that they do. Ensuring 
safety and security of our nuclear power plants is absolutely essential 
if we are to continue and hopefully increase our nation's use of 
nuclear energy, which I believe is essential to meeting our 
environmental, energy, and economic needs.
    Thank you.

    Senator Inhofe. I would defer to Senator Isakson. He has a 
timing problem and I do not.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman, and 
Chairman of the Subcommittee, Senator Voinovich, I want to 
thank you for the attention both of you have placed on 
affordable energy and our needs in the 21st century. Chairman 
Diaz, I welcome you and the members of the Commission here 
today.
    As you gentlemen are probably aware, my State is served by 
Plant Vogel, operated by the Southern Company. That facility 
was built during a time that I was in the Georgia legislature, 
and on the industry committee that oversaw public utilities and 
electric utility legislation. For the better part of two 
decades, it has provided Georgia with safe, affordable, 
reliable energy. Because of my experience with it, I am a big 
supporter of nuclear energy, and I am delighted that we are on 
the cusp of expanding nuclear energy and availability in the 
United States.
    My State is also served by the TVA's Plant Bellefonte, 
which is in the State of Alabama, but TVA serves 10 of the 
northern counties in the State of Georgia. Both TVA and 
Southern Company have estimated by 2015 that their baseline 
requirements will increase tremendously, and both are pursuing 
licensing for additional reactors at those two facilities.
    Which brings me to my point: I cannot stress enough the 
importance for the NRC to effectively staff itself to handle 
the upcoming permitting process. We have been in a rather 
dormant situation for a while in this country, but that is not 
going to be the case now.
    As I understand it, the NRC has gotten a significant 
increase in its budget, and we wait to make sure that you are 
doing everything you can to upgrade the staffing to deal with 
these additional demands. If you are slow out of the gate, it 
could suppress what is one of the most important needs we have 
in this country, to have safe, reliable nuclear energy. If you 
need help, call us, but do not be slow out of the gate.
    There is another issue which has come to my attention. I am 
going to have to leave, because I am going to be required to 
cast a vote here in a few minutes in another committee. But I 
hope someone on the Commission during the course of your 
testimony will address the issue of potassium iodine. It is my 
understanding that HHS has made a recommendation to expand the 
stockpiling of potassium iodine beyond what is currently now 
the limit, which is a 5 mile radius around a nuclear facility. 
They are recommending something in the order of a doubling of 
that.
    I am not aware of the reasons for that nor the scientific 
information or data that they have that backs that up. But I 
would certainly like someone on the board to address that 
subject during the course of this hearing for the record.
    I want to repeat again my deep appreciation to Chairman 
Inhofe and Subcommittee Chairman Voinovich for all the work 
that they are doing on nuclear energy. I particularly look 
forward to working with you gentlemen in the years ahead, as we 
have a second dawning of the nuclear energy era in the United 
States of America, and produce reliable, effective and 
efficient and affordable energy for the people of our country.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Isakson follows:]

   Statement of Hon. Johnny Isakson, U.S. Senator from the State of 
                                Georgia

    Thank you Mr. Chairman. I want to thank you for calling this 
oversight hearing. In the interest of time I will be brief as I have 
another hearing to attend as well, except to say the following.
    As you know in Georgia we have the Vogtle Electric Generating 
Plant, located near Waynesboro in eastern Georgia near the South 
Carolina border. I'm also sure you know that both Southern Company and 
the TVA, who both estimate they will need additional baseload power 
supplies by 2015, are looking at adding reactors at Vogtle, which is 
operated by Southern, and at Bellefonte which also serves my 
constituents and is jointly operated by TVA and Southern.
    Which brings me to my point. I can not stress enough the need for 
the NRC to efficiently staff itself to handle the upcoming permitting 
processes. As I understand, the NRC has gotten a significant increase 
in its budget, and we want to make sure you are doing everything you 
can to ensure that you have enough staff and resources to handle the 
workload. If the NRC is slow out of the gate on these permits, it could 
have a negative effect on this growth. Let us know if you have 
everything that you need. We can help if you don't, but you need to 
reassure us one way or the other.
    One other issue I would like someone to address during the course 
of this hearing, and I am sorry I won't be around to ask the question, 
is the issue surrounding an HHS rule regarding the stockpiling of 
potassium iodine in communities within a certain radius of a nuclear 
power plant. As I understand it HHS is proposing that radius be 
increased, I believe from 5 miles to 10 miles. I would like to hear 
from the witnesses here whether the NRC believes that is a necessary 
change. I'll be looking forward to reading that in the record from this 
hearing.
    Thank you again Mr. Chairman. I'm sorry I won't be able to stay 
longer through the hearing, but will look forward to reading the 
transcript.
    I yield back.

    Senator Voinovich. Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman.
    Today's hearing continues our ongoing oversight of the 
Nuclear Regulatory Commission. Chairman Voinovich, you and 
Ranking Member Carper deserve credit for continuing the 
commitment to hold these hearings regularly in order to review 
the NRC's activities. I appreciate that all the Commissioners 
have made an effort to be here with us today. Thank you for 
doing that.
    While we intend to hold several other nuclear hearings this 
Congress, this may be my last opportunity as Ranking Member to 
address all the Commissioners as a group. During my time as 
both chairman and ranking member, I have followed your careers. 
I have supported your confirmations. Some of you, your first 
term, some second and one of you, an unprecedented third term. 
Four of you, you know the Senate well, having served as former 
staffers. In fact, three of you served as staffers for this 
very committee.
    I know you all to be dedicated public servants and I want 
to take this opportunity to thank you for your service to our 
country. Your job is not easy. It takes you away from family 
and friends and involves an area of great responsibility: 
regulating the Nation's civilian use of nuclear materials.
    I believe the mission you carry out is one of the most 
vital roles of Federal Government, ensuring adequate protection 
of public health and safety while nuclear materials are used to 
produce power and are disposed of is a critically important 
job.
    In light of the NRC's mission, I want to share my views on 
a few issues with you. The NRC has no greater responsibility 
than safety. I want the people of Vermont and across the 
country to be safe, and it is NRC's job to ensure that that 
happens.
    As much as it seems that the Commission and the nuclear 
industry may be planning for an anticipated ``nuclear 
renaissance'' with new plants, we must maintain continued 
oversight over existing plants. I make this point because I am 
concerned that we may lose track of how dependent we are on 
existing and aging nuclear plants.
    The real ``nuclear renaissance'' has been in our efforts to 
extend the lives of existing plants by boosting their power 
output and extending the terms of their licenses. We have not 
built any new plants. Revitalizing old plants is where we have 
truly grown our reliance upon nuclear power in the last few 
years. The dependence will only grow in the near future.
    I urge you to maintain the NRC's focus in ensuring these 
plants continue to operate safely, even as we are asking them 
to fulfill more of our Nation's energy demand.
    I also feel that the NRC needs to redouble its efforts to 
work with the public, to shore up the public confidence in your 
regulatory efforts. I continue to hear from ordinary 
constituents that the NRC regulatory processes are too complex, 
too closed, too tentacled, that they stifle rather than promote 
public participation. For people to embrace future use of 
nuclear technology, they must feel that they are being heard by 
the Agency.
    Again, I thank Chairman Diaz and the rest of the 
Commissioners for being here to discuss these issues. I look 
forward to their testimony and to working with my colleagues.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Thank you Mr. Chairman. Today's hearing continues our ongoing 
oversight of the Nuclear Regulatory Commission (NRC). Chairman 
Voinovich, you and Ranking Member Carper deserve credit for continuing 
the commitment to hold these hearings regularly in order to review the 
NRC's activities.
    I appreciate that all the Commissioners have made the effort to be 
with us today. While we intend to hold several other nuclear hearings 
this Congress, this may be my last opportunity as Ranking Member to 
address all of the Commissioners as a group.
     During my time as both chairman and ranking member, I have 
followed your careers. I have supported your confirmations, some of you 
to your first term, some to a second, and one of you to an 
unprecedented third term. Four of you know the Senate well, having 
served as former Senate staffers. In fact, three of you served as 
staffers for this very committee. I know you all to be dedicated public 
servants, and I want to take this opportunity to thank you for your 
service to our country. Your job is not easy, it takes you away from 
family and friends, and it involves an area of great responsibility-
regulating the Nation's civilian use of nuclear materials.
    I believe the mission you carry out is one of the most vital roles 
of the Federal Government. Ensuring adequate protection of public 
health and safety when nuclear materials are used to produce power and 
are disposed of is a critically important job.
    In light of the NRC's mission, I want to share my views on a few 
issues with you. The NRC has no greater responsibility than safety. I 
want the people of Vermont and across the country to be safe and it is 
the NRC's job to ensure that happens. And much as it seems that the 
Commission and the nuclear industry may be planning for and 
anticipating a ``nuclear renaissance'' with new plants, we must 
maintain continued oversight over existing plants.
    I make this point because I am concerned that we may lose track of 
how dependent we are upon existing and aging nuclear plants. The real 
``nuclear renaissance'' has been in our efforts to extend the lives of 
our existing plants by boosting their power output and extending the 
terms of their licenses. We haven't built any new plants. Revitalizing 
old plants is where we've truly grown our reliance upon nuclear power 
in the last few years. That dependence will only grow in the near 
future. I urge you to maintain the NRC's focus on ensuring these plants 
continue to operate safely even as we are asking them to fill more of 
our Nation's energy demand.
     I also feel the NRC needs to redouble its efforts to work with the 
public, and to shore up public confidence in your regulatory efforts. I 
continue to hear from ordinary constituents that the NRC regulatory 
processes are too complex, too closed, too technical, and that they 
stifle, rather than promote, public participation. For people to 
embrace future use of nuclear technology, they must feel they are being 
heard by the Agency.
    Again, I thank Chairman Diaz and the rest of the Commissioners for 
coming here to discuss these issues. I look forward to their testimony 
and to working with my colleagues.

    Senator Voinovich. Thank you, Senator.
    Senator Inhofe.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. First of all, you 
have already commented on so many things I was going to 
mention, the three pieces of legislation that you folks were 
good enough to get through, and some of the accomplishments.
    You also mentioned the necessity for Yucca Mountain. It 
concerns me a little bit. We had a hearing last week and there 
are a lot of people who are trying to look at this reprocessing 
as something in lieu of this permanent site. Let there be no 
doubt in your minds that this committee is very strongly 
saying, we are going to get that thing up and running. We have 
to have Yucca Mountain, we have gone through the process, we 
are there. There shouldn't be any doubt in the minds of any of 
the Commissioners.
    I am pleased with the progress we have made. There are some 
things I think we have not quite lived up to. If you will 
remember, back in 1998 when I held the chairmanship of this 
subcommittee, the same as Senator Voinovich is holding now, we 
actually had goals and deadlines and we got things done and got 
things up and moving. There had not been an oversight hearing 
in 12 years at that time.
    So we have a lot of things that need to be--now I 
understand that only one major regulatory change incorporating 
risk has been completed, which was the Part 50.69 special 
treatment rule, which the NRC began in 1999 and did not 
complete until 2004. I am going to ask some questions, when it 
comes time for questions, about why this is taking so long and 
what we can do to improve this type of thing.
    Another area of concern has been the recent attention to 
the concept of potentially regulating safety culture. I do 
agree on a prominence of safety and that the end result must be 
safer facilities. I am greatly concerned that the methods to 
achieve this buzz word might distract the NRC from implementing 
risk informed decisions.
    A simply dictionary definition of the word culture means a 
set of shared attitudes, values, goals and practices that 
characterize a company or corporation. My concern is that you 
cannot regulate attitudes and values. If the NRC attempts this, 
you will end up ignoring real risk and safety issues.
    I understand that the definition the NRC is using includes 
the word attitude in determining whether the facility is safe 
for a culture. I am very wary of this effort.
    In the 1980's and the 1990's, we saw the NRC inspectors 
regulating in kind of a bean counting mentality where the 
violations centered more on measurable items, such as having 
the operating manuals in certain colored binders, instead of 
focusing on real risk issues. I am concerned that if the NRC 
charges its employees with examining attitudes and values, we 
may actually move backwards on the progress we have already 
made.
    So while I am sure that the current slate of Commissioners 
is not going to let this happen, let's keep in mind, we do not 
know what is going to happen down the road 5 years from now, 10 
years from now. Very likely some of you or maybe none of you 
will be here as Commissioners, and very likely many of us at 
this end of the table will not be here. So we want to set this 
up for the future, so that we know that the progress we have 
made is going to continue on into the future.
    So we will be here to pay a lot of attention to this. I 
agree with Senator Voinovich, the second most serious problem 
facing America today is the energy crisis. I think we are going 
to have to address it. You cannot address it without becoming 
aggressive in nuclear energy. I think each one of you agrees 
with that.
    So we need to move, we need to stop all the traditional 
barriers that are out there and get this thing done in a timely 
manner.
    [The prepared statement of Senator Inhofe follows:]

 Statement of James M. Inhofe, U.S. Senator from the State of Oklahoma

    I first want to thank Chairman Voinovich for holding this oversight 
hearing and for his continued commitment to strong oversight of the 
Nuclear Regulatory Commission.
    We have made a lot of progress since our first Oversight hearing in 
1998, when I was the subcommittee chairman. The NRC's relicensing 
reviews are being completed within 2 years, the NRC has moved to a 
risk-informed reactor oversight process, and we have safely added 
additional electric generating capacity through power uprates. The 
total energy added through these uprates are equivalent to four nuclear 
plants. The NRC has also done a tremendous job in responding to 
security issues following the attacks of September 11. We all worked 
hard to craft a good nuclear security law and I want to ensure that law 
is implemented in the spirit in which it was crafted. These changes 
were necessary, yet reasonable--so I expect the NRC to implement 
security requirements in a manner that takes into account that 
``necessary and reasonable'' standard.
    I want to thank the Commission, and the Commission staff, for the 
work they have done, and equally important, the work you are about to 
do.
    I commend the efforts of this committee for passing three pieces of 
legislation that I authored with Chairman Voinovich in the Energy 
Policy Act of 2005 to provide for the safe and secure growth of nuclear 
power. These provisions--NRC reforms, security, liability insurance, 
and human capital--combined with the Energy bill's sections on risk 
insurance, production tax credits, and loan guarantees provide the 
foundation for the construction of new nuclear plants.
    You are faced with the continuing relicensing of the existing 
reactors, you are still implementing new security requirements, you 
have a new reactor license process to deal with, and of course there is 
still Yucca Mountain which we have to get up and running as soon as 
possible. In addition, we can not lose sight of the accomplishments 
that have been made over the last few years, and we can't afford to 
move backwards on the progress made.
    Make no mistake, I am very pleased with the progress that we have 
made under the leadership of this commission--you are to be 
congratulated. But part of that success is due to us identifying issues 
of concern as they come up, and to that end I do have a few issues that 
I would like discuss.
    While I appreciate the efforts the NRC has made on moving to a 
risk-informed oversight process, particularly in regards to 
inspections, I am troubled by the length of time it is taking to get 
new regulations through the process, and I am concerned about how those 
regulations are not incorporating risk.
    I understand that only one major regulatory change incorporating 
risk has been completed, which was the Part 50.69 Special Treatment 
rule which the NRC began in 1999 and didn't complete until 2004. Other 
risk related rule making efforts begun in 1999 such as Part 52 for 
design certifications and Part 50.46a have yet to be completed. In 
addition, we have heard concerns that some of these proposals have 
moved further away from risk-based concerns than where they started.
    Another area of concern is the recent attention to the concept of 
potentially regulating ``safety culture.'' While I agree on the 
prominence of safety, and that the end result must be safer facilities, 
I am greatly concerned that the methods to achieve this buzzword might 
distract the NRC from implementing risk-informed decisions.
    A simple dictionary definition of the word culture means ``a set of 
shared attitudes, values, goals, and practices that characterize a 
company or corporation.'' My concern is that you can not regulate 
``attitudes and values,'' and if the NRC attempts this you will end up 
ignoring real risk and safety issues. I understand that the definition 
the NRC is using includes the word attitude in determining whether a 
facility has a safety culture. I am very wary of this effort.
    In the 80's and 90's we saw the NRC inspectors regulating in a 
bean-counting mentality where the violations centered more on 
measurable items such as having the operating manuals in certain 
colored binders instead of focusing on real risk issues. I am concerned 
that if the NRC charges its employees with examining attitudes and 
values, we may actually move backwards on the progress made.

    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Obama.

 OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing today and your leadership 
on this issue. I appreciate the witnesses appearing before the 
subcommittee and look forward to hearing their testimony.
    As my colleagues know, nuclear power provides more than 50 
percent of the electricity needs in Illinois. We have 6 plants, 
11 reactors, more than any other State in the country. I have 
said previously before this committee, to the chairman of EPW 
as well as the chairman of this subcommittee, that as our 
energy consumption continues to increase in the coming years, 
we are going to need to meet this challenge. We are going to 
have to determine how best to meet it without jeopardizing the 
environment.
    As Congress considers policies to address air quality and 
the harmful effects of carbon emissions on the global 
ecosystem, I believe that nuclear power should not be omitted 
from the discussion. I think in our overall energy mix, nuclear 
power is going to be a critical component. I would like to see 
us develop a safe, clean, expanded nuclear capacity that allows 
us to deal with some of the other environmental challenges that 
we have.
    However, as the NRC knows, the viability of nuclear power, 
particularly expanding nuclear power to meet additional energy 
needs, is going to rest in large part on the public having full 
confidence in the health and safety precautions taken at these 
facilities. When events occur that surprise the public, even if 
the potential risks are within Federal health and safety 
standards, it is understandable that people are skeptical and 
concerned about nuclear power.
    In Illinois, we have recently had an example of this 
difficulty. Two months ago, it was announced by Exelon Nuclear 
that over the past 6 to 8 years, there have been several 
accidental leaks of tritiated water at the Braidwood, IL plant. 
It is estimated that each leak resulted in the discharge of 
approximately 3 million gallons of tritium into the surrounding 
groundwater.
    I was troubled to learn that community residents, 
particularly State and local officials responsible for the 
safety and health of their constituents, did not receive full 
or immediate notification of this contamination, either from 
Exelon or the NRC. I think that's wrong. Our constituents 
deserve to be notified immediately and comprehensively when 
substances of concern are released into the groundwater. That 
is why I introduced a bill to require nuclear companies to 
inform not just the NRC but also State and local officials if 
there is an accidental or unintentional leak of a radioactive 
substance.
    Mr. Chairman, I think this is a simple, common sense bill. 
It is good for public safety, it is good for the public's right 
to know. Ultimately, I think it is going to be good for the 
nuclear power industry. I think the more we know about nuclear 
power, the better the public is informed, the better you are 
going to be able to do your jobs, and the better we are going 
to be able to expand, potentially, the use of nuclear power to 
meet our energy needs.
    So I am looking forward to getting the views of the 
witnesses on this bill, as well as other issues facing the 
industry. Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Obama follows:]

Statement of Hon. Barack Obama, U.S. Senator from the State of Illinois

    Mr. Chairman, thank you for holding this hearing today. I 
appreciate the witnesses appearing before the subcommittee, and I look 
forward to hearing their testimony.
    As my colleagues know, nuclear power provides more than 50 percent 
of the electricity needs of Illinois. We have 6 plants and 11 
reactors--more than any other State in the country.
    I have said previously before this committee, as our energy 
consumption continues to increase in the coming years, we will be 
challenged in how best to meet this demand without jeopardizing the 
environment. As Congress considers policies to address air quality and 
the harmful effects of carbon emissions on the global ecosystem, 
nuclear power should not be omitted from the discussion.
    However, as the NRC knows, the viability of nuclear power rests in 
large part on the public having full confidence in the health and 
safety precautions taken at these facilities. When events occur that 
surprise the public, even if the potential risks are within Federal 
health and safety standards, it's understandable that people are 
skeptical and concerned about nuclear power.
    In Illinois, we've had a very real example of this recently. Two 
months ago, it was announced by Exelon Nuclear that over the past 6 to 
8 years, there have been several accidental leaks of tritiated water at 
the Braidwood, IL plant. It's estimated that each leak resulted in the 
discharge of approximately 3 million gallons of tritiated water into 
the surrounding groundwater.
    I was troubled to learn that community residents, particularly the 
State and local officials responsible for the safety and health of 
their constituents, did not receive full or immediate notification of 
this contamination--either from Exelon, or the NRC.
    I think that's wrong. Our constituents deserve to be notified 
immediately and comprehensively when substances of concern are released 
into the groundwater. That's why I introduced a bill to require nuclear 
companies to inform not just the NRC, but also State and local 
officials if there is an accidental or unintentional leak of a 
radioactive substance.
    This is a simple common-sense bill. It's good for public safety, 
it's good for the public's right to know, and it's ultimately good for 
the nuclear power industry. I look forward to getting the witnesses' 
views on this bill, as well as other issues facing the industry.
    I thank the Chair.

    Senator Voinovich. Thank you, Senator Obama.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    I give my commendation to the chairman of the committee and 
yourself, for getting us onto this subject. We have been 
introduced to thoughts about nuclear energy by gas prices, by 
the politics of oil, by prospective shortages. So we know that 
we have to find alternative sources for energy creation. That 
includes research, hybrids, you name it. It certainly includes 
nuclear energy, as a distinct possibility. The work of the NRC 
could not be more important. The stakes could not be higher.
    Nuclear energy has enormous opportunities for our society. 
Electricity can be generated, it is believed, without 
contributing to global warming or the air pollution caused by 
burning fossil fuels.
    Now, my State, New Jersey, has four nuclear reactors. They 
provide more than half of the electricity that we use. But as 
we weigh the benefits of nuclear power, we must also be 
realistic about the potential problems. When we look at nuclear 
power, safety is always the first thing that pops into people's 
minds. The Oyster Creek in New Jersey is the oldest operating 
nuclear facility in the entire Nation. It came online in 1969. 
It was planned to last 40 years. The current license expires in 
2009 and the NRC is now in the process of determining whether 
it should be relicensed for another 20 years, which would take 
it until 2029.
    As the oldest nuclear facility, Oyster Creek must have 
special attention. The people who live near Oyster Creek are 
justifiably worried. They also know that the NRC has never 
denied a license extension for a commercial reactor. But they 
want to make sure, and so do I, that this review process is not 
a rubber stamp.
    Now, I wrote in a February 21st letter to Chairman Diaz 
that my top priority in the process is ensuring the safety of 
the surrounding communities and the workers at Oyster Creek. 
After I sent that letter, I was pleased that the judges of the 
Atomic Safety and Licensing Board granted a hearing to 
determine whether the steel radiation barrier at Oyster Creek 
has been compromised by rust.
    Other issues also have to be addressed in our four other 
public hearings, including now the vulnerability of the site to 
a terrorist attack and backup power to cool the reactor. This 
is not only my opinion, it's the opinion of the New Jersey 
Department of Environmental Protection.
    So I hope the NRC is going to exercise its prerogative to 
ensure that all of these issues get a full and open hearing. If 
the NRC expects the citizens near Oyster Creek to accept a 
final ruling as a result of a fair and open process, it can't 
rush to judgment. You must allow everyone an opportunity to air 
their concerns.
    Mr. Chairman, one of the things that I would like to find 
out is whether or not the NRC will engage in a field hearing to 
make sure that there is an exchange of information between the 
NRC and the nearby residents and public.
    Thank you very much.
    Senator Voinovich. Thank you, Senator Lautenberg.
    I will now call on our ranking member, Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Commissioners, welcome. I am delighted to see all of you. I 
have been looking forward to this hearing. I hope you have as 
well.
    I think it is fair to say that a renaissance in nuclear 
energy, nuclear power, is underway in this country. I welcome 
that. Today I understand that there are nine companies or 
groups of companies that are developing applications for new 
nuclear power plants with the intention of filing those 
applications with you in the next year or two.
    In addition, as Senator Lautenberg and others have 
suggested, many of the current nuclear plants throughout our 
country renewed their license to continue to operate, and we 
expect the rest of the current fleet to apply for renewal very 
soon.
    Although the Department of Energy continues to push back 
its time line, we can assume that in the near future they will 
apply for a license to operate a nuclear waste repository as 
well. The future of the nuclear industry literally begins, 
though, and ends with you, with the Commission. Your 
responsibility is a big one, and I believe it is one that the 
Commission manages quite well.
    I am a believer, as you have heard me say before, in 
nuclear power. I am heartened by its resurgence. I am ever 
mindful of the need to ensure that the operations, that we be 
vigilant and that we make sure that the operations are 
conducted as safely as is humanly possible and then some.
    Energy prices continue to drag down our economy. Our 
dependence on foreign oil for energy continues to be a major 
concern, I think for all of us. I think nuclear energy is an 
answer, not the only answer, but an answer to both of those 
concerns. It is important that the Commission perform your 
duties and have the resources that you need to perform them 
promptly and with a high degree of excellence.
    I would also say, I have not heard all the opening 
statements here this morning, but as Tip O'Neill used to say, 
all politics is local. Just as Senator Lautenberg mentioned 
Oyster Creek, we have three nuclear plants right across the 
river from Delaware. When I was Governor of Delaware, I used to 
say that they are closer to me than they were to the Governor 
of New Jersey.
    So we are always concerned about how well those facilities 
are operated, and I am going to be talking with you and asking 
you some questions about how we are doing over there, how they 
are doing over there, now that Exelon is involved in the 
operation of those facilities, not only in terms of operating 
performance, but what is the, if you will, the commitment to 
safety, the mind set, how is that changing and what are your 
views of that.
    The other thing I want to talk about is just to get an 
update, and you will probably address this in your comments. I 
would like to get an update on nuclear waste. The President has 
proposed, I think in his State of the Union messages, some 
different approaches on nuclear waste. I would like to hear 
your take on that and an update on what's going on out in Yucca 
Mountain and also what you make of the President's proposals.
    With that having been said, again, we are delighted that 
you are here. We look forward to your testimony. Thank you so 
much for joining us.
    Senator Voinovich. Thank you, Senator Carper.
    Since all my colleagues have mentioned their favorite 
nuclear facilities----
    [Laughter.]
    Senator Voinovich. I guess I am remiss in not mentioning 
Davis-Besse and Perry Nuclear. I have spoken so much about that 
to the Commissioner members and the chairman that it is 
redundant. But publicly, the beginning of the whole issue in 
terms of the work of the Nuclear Regulatory Commission, in 
terms of looking at safety concerns, really was generated by 
the situation that we had at Davis-Besse.
    To Messrs. Jaczko, McGaffigan, Merrifield, Lyons, thank you 
for being here. We gave all of you a chance to speak for 2 
minutes and you decided that you would let the chairman take 
the heat this morning. Because of that, Chairman Diaz, we would 
like to hear from you. If you can limit your comments to 10 
minutes, we would be most grateful.

 STATEMENT OF NILS J. DIAZ, CHAIRMAN, U.S. NUCLEAR REGULATORY 
      COMMISSION ACCOMPANIED BY: EDWARD McGAFFIGAN, JR., 
 COMMISSIONER; JEFFREY S. MERRIFIELD, COMMISSIONER; GREGORY B. 
     JACZKO, COMMISSIONER; AND PETER B. LYONS, COMMISSIONER

    Mr. Diaz. Thank you very much, Mr. Chairman. I certainly 
would limit my comments to 10 minutes. It is a pleasure to be 
here again and to appear before you with my fellow 
Commissioners to discuss the Nuclear Regulatory Commission's 
programs. I request that my written testimony on behalf of the 
Commission be submitted for the record.
    The NRC continues to discharge our responsibilities for 
licensing and regulating civilian nuclear facilities and 
materials in accordance with the congressional mandate in an 
open, balanced, risk-informed and ever more effective manner. 
Safety is our mission. Safety, security and emergency 
preparedness and reliability are synergistically improving.
    More than one-third of the United States' power reactor 
fleet has applied for and received, after rigorous review, 20-
year extensions of their licenses. Risk-informed and 
performance-based regulation is now ingrained in the Agency's 
and the industry's operation of plants. A safety and security 
framework for reactors and materials is in place, is being 
tested and is being improved commensurate with the post 9/11 
threat and potential consequences.
    The Agency's research programs have been focused on the 
Agency's defined needs, integrated with operational safety and 
licensing priorities, leveraging resources and expertise with 
international partners. Research is providing sound technical 
leadership and results with a foothold in the future. Our many 
international obligations are executed well. Our leadership is 
now apparent and our comparative efforts continue to span and 
serve our Nation and our international partnerships.
    Our fiscal affairs are in order. Our financial needs have 
been supported by the Congress, and we continue to manage and 
prioritize resources including our human resource needs, 
investing in the present and the near future while exercising 
appropriate fiscal restraint.
    Having said that, Mr. Chairman, the Commission and the 
staff have a lot of work to do. We need to do that work well 
and we need to do it timely.
    The NRC continues its vigilant and strong safety focus on 
operating nuclear power plants. We will not lose that focus. We 
have continued to make improvements in the licensing and 
regulatory processes with significant resources. For example, 
over the past year, as the chairman mentioned, we have renewed 
nine licenses at five sites and issued six power upgrades. On 
the regulatory oversight front, we continue to exercise strong 
oversight of nuclear power plants as we refine our risk-
informed process for inspecting and for assessing licensee 
performance.
    The reactor oversight process has matured and improved. But 
it is still a work in progress.
    The committee, and particular Senator Voinovich, has been 
strong proponents of improving safety culture in the right 
manner. The Commission is fully addressing this issue, and we 
are addressing it with a focus on how we can support the 
licensees, how we can improve and how we can exercise oversight 
over the licensees' safety culture but not measure attitudes. 
We are not going to measure attitudes.
    The NRC realizes the need for nuclear power plants to 
maintain a strong safety culture and the requisite safety-
conscious work environment. We have been working on this issue 
both to ensure appropriate oversight of safety culture and to 
ensure we have a healthy safety culture at the NRC itself. The 
NRC has been working with stakeholders to further improve the 
tools we have to assess safety cultures at nuclear power 
plants, and is working to complete additional changes to the 
reactor oversight process to address this issue, including the 
use of independent assessments, if necessary.
    We have also been working on improving the safety culture 
and climate of the Agency's work force. In 2005, the Inspector 
General conducted a survey of NRC employees to assess the 
current safety culture and climate of the Agency work force. 
The NRC safety culture and work climate, Mr. Chairman, has 
improved significantly in virtually every area since 2002, as 
reflected in the charts that we have displayed and that is 
included in the testimony. Having said that, the survey also 
revealed areas of opportunity for continued improvement.
    [The referenced chart can be found on page 56.]
    Today, Mr. Chairman, we are being asked to be ready to 
license new reactors to meet the energy needs of the Nation. In 
fact, the number of projected new plant license applications 
has more than tripled since this time last year, and it 
continues to increase. We presently have received intentions 
for 11 combined construction and operating license applications 
encompassing 17 units. Those poses a serious challenge to our 
licensing and new construction inspection capabilities.
    We anticipate the need to conduct simultaneous reviews of 
multiple new plant license applications, design certifications 
and early site permit applications, all of them bunched in a 
small period of time. Having said that, we will not be 
distracted. We will maintain strong oversight activities to 
ensure the safety and security of the operating plants. We are 
preparing for this with a new work structure.
    In order to allow for efficient parallel review of 
applications, the staff is considering a number of steps and is 
planning to implement a design center approach which would use 
a single technical evaluation to support review of multiple 
combined license applications for each vendor design, meaning 
that for AP1000, you will have one type of design that will be 
focused only on the AP1000, how it is used from one applicant 
to the other. The same thing for the ESBWR and the EPR. In the 
same technical areas where possible, we will actually use the 
same review.
    In this regard, we are continuing to assess our personnel 
and work space needs in light of the very substantial increase 
in the number of anticipated new plant license applications. We 
might need the support of the committee in some of these areas.
    Mr. Chairman, we know we are accountable to the Congress 
and to the people of this country. Throughout the Agency, we 
perform our work under that premise. We have structured the 
Agency to be true to our strategic objective. We accept and 
discharge our responsibilities to contribute to the well-being 
of our people by protecting the public, the environment and our 
Nation's security. We understand the challenges we face in the 
new reactor licensing and human capital areas, and will 
continue to work with the committee as we move forward. With 
your continued support, we will be ready to carry out our 
responsibilities.
    We will be pleased, sir, to answer your questions.
    Senator Voinovich. Thank you, Chairman Diaz.
    In that chart there, in the red, how many senior executive 
folks have you lost?
    Mr. Diaz. We have lost, sir, a significant number, 
especially during the last few months, of senior executives. I 
don't know the exact number, but we keep a significant number 
of good people. We try to get some of them back. We normally 
have a cycle that by the end of the year, the beginning of the 
year, we lose more people than we can get. Then our hiring 
picks up, as is shown on the chart. It is a continuous cycle.
    I have been told by my staff we have lost five SESers in 
the last few months. We intend to continue to renew our SES and 
managers by a program that is a tremendous success.
    Senator Voinovich. I know that you submitted an overall 
plan and we have had a chance to review. However I am really 
concerned about it. These are top managers and you do have the 
authority, if you find yourself in a jam, that you can bring 
back an annuitant without them losing their annuity, is that 
correct?
    Mr. Diaz. Yes, sir, and we are grateful for your support on 
that. We have that authority and we are exercising it.
    Senator Voinovich. You have already determined what you are 
going to need in 2000 and 2008. One of the concerns that I have 
is that the Department of Energy has a very good program that 
has made money available to engineering schools, nuclear 
engineering schools, and provided money for reactors in 
Massachusetts and one other place, I think.
    Mr. McGaffigan. All over the country.
    Mr. Diaz. Twenty-eight places, yes.
    Senator Voinovich. Twenty-eight places. And it is my 
understanding that they have eliminated that funding. I would 
like to know, what are you doing about it? Because unless that 
money is restored, this effort to train up more of these 
engineers is going to fall short. What are you doing about it?
    Mr. Diaz. Well, sir, we of course cannot speak for the 
Department of Energy. But I can tell you that the Commission 
unanimously supported our request for additional funding for 
universities and grant programs, as the Energy Policy Act 
stated. The President's budget is supporting that request.
    So the NRC will have, in 2007, additional funds to be able 
to support the universities with grants, fellowships, 
assistantships, summer programs. We did what we thought was 
needed. I will assure you that personally, and I am sure my 
fellow Commissioners will do likewise, we will try to bring the 
fact that this is important, that although it might not have an 
impact tomorrow, it will have an impact the day after tomorrow. 
This is a critical infrastructure of the Nation and it needs to 
be supported.
    Mr. McGaffigan. Mr. Chairman, if I could just add, it is 
out of our hands. I would personally urge you to fix that in 
the appropriations process this year. That was a mistake, I 
believe, on the part of the Department of Energy.
    Senator Voinovich. Have you drafted a letter to the 
Secretary?
    Mr. McGaffigan. I think I would get in trouble. I probably 
do just as much as I can possibly do without getting into too 
much trouble.
    Senator Voinovich. Well, then why don't you draft it for 
the members of this committee, and we will get every member of 
the committee to sign it? How's that?
    Mr. McGaffigan. For you to Senator Domenici, sure.
    Senator Voinovich. I think we need to get it to Mr. Bodman 
and we need to get it to the White House and we need to get it 
to the appropriators. But they are all talking about bringing 
on new people and the new competitiveness agenda. By God, you 
can't do it unless you have the people. You have to support it. 
It costs money.
    Mr. Merrifield. Senator, I agree with Commissioner 
McGaffigan. I think this is vitally important. I am glad you 
did bring this out.
    Just to point out, I think it is not, it doesn't fall quite 
evenly. It hurts, particularly the graduate members of those 
programs, folks who are getting their masters degrees and 
Ph.Ds, which is an area we have already been falling behind. So 
this is a critically important program as you pointed out. It 
is something I think we all should be concerned with.
    Senator Voinovich. We ought to characterize it as 
implementing the recommendations of the report of the National 
Academy of Sciences, gathering above the rising storm, 
something like that.
    I have talked with you, Commissioner Diaz, a little bit 
about total quality management. I hear complaints from a lot of 
folks out there about the way the organization operates in 
terms of customer service. I would like you to agree that you 
will sit down with me and maybe some people that really know, 
and talk about bringing total quality management to your 
operation.
    I did this when I was Governor of Ohio. We were a leader in 
the country. I finished up as Governor with 17 percent less 
employees. I had a much happier work force. We had continuing 
improvement teams, we had facilitators. People were excited. We 
found that too often, the people that worked in many of these 
agencies were not even aware of the fact that people were 
unhappy with the way that the operation was working. It really 
made a big difference.
    I don't know what your plans are. One of the challenges, I 
think this committee should know, is that Chairman Diaz's term 
is up, and I don't know yet whether he is going to tip his hat 
and leave or not. We have two temporary appointees, Mr. Lyons 
and Mr. Jaczko. So we may have some leadership changes here, 
and it is real important that we get this thing taken care of 
as soon as possible, so that if Chairman Diaz leaves, that 
we're not just out there without some leadership at a time when 
the NRC needs leadership more than they have ever needed it 
before.
    Mr. Diaz. Sir, I would be pleased to sit with you and 
discuss and learn and improve the way that we manage our 
people. I think we have really achieved great strides in the 
last 3 years. We have really paid attention to our people. We 
have taken our senior managers and the senior managers, their 
managers, into retreats and we have hammered at the fact that 
our work force is our best asset, that we need to make sure 
that we communicate well with them, that the managers' 
accountability and the staff accountability are one and only 
one, that they need to integrate it.
    We see great results. Having said that, I think we know we 
have a way to go. I would be pleased to sit with you and work 
the issue through.
    Regarding the leadership of the Commission, no, sir, I am 
not going to tip my hat. I can tell you that what I have done 
and what my fellow commissioners are doing is, we are making 
the institution strong. We are putting the changes in the right 
places in the institution with the right management, so that 
the institution will not only endure, but actually keep growing 
and doing the job that it needs to do for the American people.
    Senator Voinovich. I would just like to say this, that you 
are going to have to be as efficient as you ever have been 
before. Because you have a human capital challenge of getting 
the people on board to get the job done.
    One of the things that, you know, we are talking about the 
applications, we need the energy now, and what I understand is 
that it won't be until 2014 that we will see energy finally 
produced as a result of these applications that have come in. 
When I talk with folks that have filed applications, they're 
just worried to beat the band that they may run into what they 
ran into many, many years ago. In fact, one of the reluctances 
of people going forward with new facilities is this whole era 
of one impediment after another impediment after another 
impediment. I think it's really important that you start 
talking about how you are going to make sure this thing is 
going to move along, at the same time, of course, doing the job 
that you are supposed to do.
    Mr. McGaffigan.
    Mr. McGaffigan. Sir, I would only say that I think a lot of 
what we have been able to accomplish the last few years really 
reflects the TQM approach. We don't use that word at NRC, but 
we do expect constant improvement. We have in our strategic 
goals, we have continued to increase them. So a lot of TQM, I 
remember I was working for Senator Bingaman and Motorola was 
one of the first to embrace that. I think an awful lot of what 
we've done and the success we have reflected in one of those 
view graphs, the IG survey, comes from a TQM approach, although 
we don't use that word.
    Senator Voinovich. What I would like to do, Chairman Diaz, 
is bring in Mr. McGaffigan and whoever else you want to bring 
in. I have some experts in the country that I will have them 
come in, talk about what you are doing, we will see what their 
opinion is and maybe we will go from there.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I want to build off Senator Voinovich's question in just a 
moment. But first, this morning I want to come back to the 
issue of excellence, commitment to excellence, commitment to 
safe operations. I remember when I was on active duty in the 
Vietnam War, some guys in my squadron would talk about 
Government work, they would say, they would do a job, they 
didn't do it very well, and they would say, that's good enough 
for Government work. I never liked that very much.
    I remember when a guy named Bert Lance was OMB director in 
Jimmy Carter's administration. He used to say, if it ain't 
broke, don't fix it. That's what he used to say.
    In my time, I was privileged to serve as Governor of 
Delaware, we used to say, if it isn't perfect, make it better. 
If it isn't perfect, make it better. I would just add to what 
Senator Voinovich has said, that was the creed that we 
attempted to live by every day. My hope is that you do, as 
well, at the NRC.
    We need safe, reliable nuclear energy in this country going 
forward. The biggest threat against that is a lack of 
confidence on behalf of Americans in terms of the safety of 
nuclear operations, not just in their safe operations on a 
daily basis of the plants across the country, but also to be 
sure that as we dispose of the waste that we are safe in that 
regard, too.
    I want to come back to something I think Senator Voinovich 
was getting to. I think you said 9, 10, applications, 15 or 
plants, is that right?
    Mr. Diaz. Eleven applications, 17 plants.
    Senator Carper. Seventeen plants, OK.
    Mr. McGaffigan. Sir, those are the ones that are announced. 
There are still others working.
    Senator Carper. OK. Just again quickly, the time to ramp 
until we get the first of those online would be at the earliest 
when?
    Mr. Diaz. In 2015, sir.
    Senator Carper. OK. How many nuclear power plants do we 
have in the country, about 100, 103?
    Mr. Diaz. One hundred and three and 104 probably next year.
    Senator Carper. As I understand it, even though the number 
of nuclear power plants has not increased in some time, we do 
have a greater output of electricity from the plants that we 
have, just take a moment or two and just explain how that has 
happened and whether or not we can look for any further 
increase in output for the next several years as we are waiting 
for the new capacity to come online.
    Mr. Diaz. Yes, sir. The most significant improvement has 
been in the capacity factor, due to the reliability and safe 
operations of the plants. What this essentially means is that 
we have really increased generating capacity of the country by 
about 18,000 megawatts over the last 15 years or so. So about 
the capacity factor of 18 large nuclear power plants, just due 
to the increased reliability of the plants. They stay operating 
longer, they operate longer periods of time at full capacity.
    The other addition is what we call power upgrades. All of 
these plants have the capability to upgrade the power, some of 
them a little bit and some of them a lot. There's almost 4,600 
megawatts of added capacity that is being put online just 
because of those power upgrades.
    Senator Carper. Looking forward, over the next, this is 
2006, looking forward over the next 8 or 9 years, as we 
anticipate the bringing online of additional power plants, can 
we expect further output from the 103 or 104 plants that exist, 
or have we basically, are they basically peaked out?
    Mr. Diaz. They have peaked out, sir. They have plateaued at 
about a 90 percent capacity factor, I think. We think they can 
go to 91 or 92. But because of the issue of refueling, 
maintaining the equipment, that is about the best that they can 
do. There will be additional power upgrades. But those will be 
incremental and smaller increases.
    Senator Carper. OK. Across the Delaware River from Delaware 
City are a couple of, several nuclear power plants that you may 
have heard of, Salem and Hope Creek are among the facilities 
that are there. The record of operations reliability has not 
been good over the years. Questions about the culture or the 
commitment to safety have not been especially good, either.
    There has been a change in ownership management, or there 
is a change. I don't know if it has been consummated, ownership 
and management, that would pass the management of those 
facilities from PSE&G to Exelon. I would just ask you, give us 
an update of your understanding of how they are doing. I 
visited a couple of times. How is it coming?
    Mr. Diaz. They are doing better, sir. Our region took some 
very polite measures with the licensees. They took about three 
2x4's and went into the area and let them know that the Agency 
was going to be very, very strong in exercising the required 
oversight. They actually took immediate measures regarding both 
their safety culture, the safety culture work environment. They 
revised their processes. They revised their corrective action.
    I still think they are a work in progress. But progress has 
been made.
    Senator Carper. Good. Do any other commissioners want to 
add to or take away from that, please?
    Mr. McGaffigan. Just particularly, I think the advent of 
Exelon, which I believe occurred about February of last year, 
has been really good for the site. They've made safety 
improvements, as the chairman said, they've made significant 
security improvements as well. I think they're on the right 
path.
    Senator Carper. OK. I understand, just to follow up 
briefly, I understand there were several shutdowns over the 
last year. I presume that that's not uncommon in nuclear 
facilities. But I think there were at least three, I think two 
of those happened within maybe a week of each other.
    Do you have any understanding of what those occurrences 
were about, and how they were addressed?
    Mr. Diaz. Yes. You are totally right, Senator. These events 
do happen. We have now a process in which we look into each one 
of these occurrences. The licensee needs to take prompt 
corrective action to try to prevent recurrence.
    I believe that the issues were properly addressed and 
hopefully they have learned the lessons of how to carry out 
some of this maintenance and maneuvers and will stay without 
these incidents.
    Senator Carper. I understand last year the NRC conducted, 
as you suggested, a special inspection of the safety culture of 
the Salem and Hope Creek reactors. According to the NRC's 
annual assessment letter, I think it read, and I am going to 
try to quote this, ``The inspection team noted some issue that 
required additional action and focused attention.'' You may 
have already addressed this in your comments. But if you want 
to add anything to it, I would appreciate that.
    Mr. Diaz. No, sir, I think the region is addressing the 
entire licensees' capabilities to properly manage their plant. 
I think we always notice some issues. We are very good at that, 
especially when somebody has had some problems. We always take 
our magnifying glass and crank it up a little bit.
    I don't see any significant safety issues in these 
facilities at the present time.
    Senator Carper. Good. I am going to ask you to answer for 
the record, if you will, just to elaborate on the earlier 
assessment from that assessment letter, just elaborate on it. 
And let us know what if any are the further NRC plans to follow 
up and to ensure that those issues that were raised by that 
inspection are being addressed.
    It would be helpful if you could give us some specific time 
line.
    Mr. Diaz. I would be happy to provide you with that 
information for the record.
    [The referenced information can be found on page 59.]
    Senator Carper. Good. Thanks.
    In the minute and a half that I have left, I want to turn 
to a pitch that I telegraphed earlier, and I mentioned in my 
opening statement, the President has spoken during his State of 
the Union Address, talked about the need to increase reliance 
on nuclear energy as we try to reduce our reliance on foreign 
sources of energy. He talked about the disposal of nuclear 
waste. I would just ask you to take a minute or two to explain 
what the President was suggesting and then just really, for the 
commissioners, what's good about it, what concerns should we 
keep in mind?
    Mr. Diaz. Yes, sir. I believe that what the President and 
the Department of Energy is chartered to conduct is a review of 
how this Nation and really the world should actually handle the 
front end and the back end of the fuel cycle. Because it's not 
only the back end. Eventually what the President is proposing 
is an integrated solution to the issue of fuel, fuel from the 
beginning, fuel to the end, and how to do that in a manner that 
allows the appropriate use of the fuel and the appropriate 
disposition of the fuel. Rather than having just one end 
option, I think the President is saying there are several 
options and they need to be studied. They need to be analyzed.
    We are not a direct part of this process. But we hope to be 
able to provide expertise as requested to assist in the 
potential licensing and safety issues that would arise with 
this proposal of GNEP.
    Senator Carper. Good. And I would love to hear from other 
commissioners. Commissioner Lyons?
    Mr. Lyons. At the moment, it is somewhat unclear when the 
NRC will be involved in the processes being suggested by the 
DOE. But as or if those move ahead, as they move into 
commercial operation, there certainly will be a significant 
challenge for the NRC. As Senator Voinovich and others have 
spoken to the manpower challenges, this will present 
significant additional manpower challenges because the NRC 
would be asked to evaluate technologies that are well outside 
the range of those that we are currently working with. If 
recycling, if advanced burners are to be a part of this 
process, there is no question that we will have to do 
significant upgrading of staff capabilities to address that.
    Senator Carper. Other comments, please.
    Mr. McGaffigan. Senator Carper, you have to understand that 
this proposal is in its infancy. It is decades away from being 
implementable. As I understand, what Secretary Bodman has 
proposed is a 3-year effort to see whether something might be 
possible with a decision in 2008 on doing engineering scaled 
facilities. But real facilities that would affect the fuel 
cycle in a significant way are decades away.
    My only concern, and there are all sorts of concerns with 
regard to it, technical, economic regulatory, as my colleagues 
have said. I don't want them to lose focus on the near term, 
the nuclear renaissance, the issue that Senator Voinovich 
raised, which may, the cut in education for the universities 
may have been part of trying to find money for GNEP. I hope 
not.
    And Yucca Mountain, they have to continue to focus on 
whether they can put together a license application that can 
pass muster with us. So I wouldn't want them to lose focus on 
things they have to do in the next few years. And even on the 
nuclear renaissance, they have to have a new standard contract 
with the licenses in order to get listed. That is something DOE 
has to contribute here and now to the possibility of this 
nuclear renaissance. GNEP is decades away.
    Senator Carper. OK. Yes, sir, Mr. Jaczko.
    Mr. Jaczko. If I could just add, one of the crucials for 
the NRC in this whole process is to ensure that the NRC has the 
appropriate regulatory and licensing authority for whatever 
facilities will be constructed as part of this. That is, from 
our perspective, one of the most immediate challenges, as 
Commissioner Lyons mentioned, that could involve tremendous 
changes to our regulations and other things.
    So knowing that we have that role and establishing that 
role early and clearly will be important.
    Senator Carper. My time has expired. Mr. Merrifield, very 
briefly.
    Mr. Merrifield. I agree with the comments made by both 
commissioners. Particularly, we have been waiting for the DOE 
submission for Yucca Mountain application. That is something 
Congress expects us to do in a period of 3 years. We put in 
place a process, the procedures and the people in order to take 
that. The delays in receiving that application are difficult 
for us, because that's forced us to have to retrench a bit, 
despite having been right on the edge, willing to accept that.
    How GNEP affects that process is obviously an issue of 
concern. I certainly would say I would agree with Commissioner 
McGaffigan and hope this does not delay where we are going 
relative to Yucca itself.
    Senator Carper. Good, thank you. Thanks for your responses.
    Senator Voinovich. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    As you know, for years, since 1998, anyway, I have been 
advocating a stable and predictable licensing process. I stress 
predictable. That's the important thing. I think sometimes we 
forget the massive amounts of investment that is necessary to, 
it is all predicated on what you folks come out with. So I 
think that predictability in the licensing process is an 
absolute, if we are to proceed with the construction of new 
nuclear power plants in this country.
    Yet here we are in 2006, as all these utilities are in the 
middle of developing their application for combined operating 
licenses, the Commission is still updating the rule on the 
licensing project. Now, we talked about this before, Mr. 
Chairman, and I have to ask you the question, when is the 
Commission going to finalize the rule?
    Mr. Diaz. Sir, we are going to finalize this rule by next 
year in time for it to be used by any of the applicants for a 
COR license. The reason for this rule is the same reason that 
you addressed at the beginning, this predictability. We really 
wanted to have, in our books and for the benefit of the 
licensees and stakeholders, a clear set of rules that can be 
followed----
    Senator Inhofe. See, that's what I'm getting at here. Now, 
why, you say next year. Next year has 12 months. When?
    Mr. Diaz. It's October of next year.
    Senator Inhofe. October of next year you will finalize----
    Mr. Merrifield. No, October of this year is I think the 
goal, sir. We will get the proposed final rule in October.
    Mr. Diaz. I'm sorry, it's January 2007, Mr. Chairman.
    Senator Inhofe. No, it's October 2006.
    Mr. Diaz. October 2006 when it comes to the Commission, 
January 2007 when the final rule should be----
    Senator Inhofe. OK, it will come to the Commission, you all 
will be working prior to that in the process of this, I am 
sure. Why can't you just go ahead as soon as it comes to the 
Commission and act on it?
    Mr. Diaz. Well, sir, the Commission is a deliberative body.
    Senator Inhofe. So are we, and that is one of the problems.
    Mr. Diaz. Yes. I fully understand that.
    Once we get a document that is going to become an official 
rule of the Agency, the Commission makes sure that everything 
that should be there is in there. But I hear you, we should be 
as expeditious as possible. I am sure my fellow Commissioners 
will try to be as expeditious as possible on that issue.
    Mr. Merrifield. Mr. Chairman, I would agree with the 
chairman. We need to try to get that through the Commission as 
quickly as we can. Some of the delay in that will be subject to 
the Administrative Procedures Act, over which we have no 
control.
    Senator Inhofe. Well, OK, do you see any way it could be 
done before that?
    Mr. Merrifield. Any way it could be done before October of 
this year?
    Senator Inhofe. That it would come to you before October 
2006?
    Mr. Merrifield. I think we have already pushed the staff as 
reasonably hard as we can push them. What the Commission can do 
is follow very closely the staff proceedings as they go along 
and the interactions between our staff, the regulated utility 
and other interested stakeholders. From my own view, when I 
voted in favor of moving forward with this proposal, it was 
with the full knowledge that if we don't come up with something 
that is workable by that October deadline, I will vote against 
it. So I think the Commission is going to keep----
    Senator Inhofe. Well, that is not going to help.
    Mr. Merrifield. I'm sorry?
    Senator Inhofe. That is not going to help things if you 
vote against it. I just want to, it just seems to me, and let's 
do this for the record. I would like to have you tell me what 
steps you have to go through, and understanding the 
administrative procedures problems that might be in there, as 
to why we can't do it. Then if you couldn't have some guidance. 
See, every day that's going by, these guys are spending, making 
massive investments, at least I hope they are, because I am in 
a bigger hurry than they are or you are, to get to that point 
where we can have, expand our nuclear capabilities.
    So I would like to know what that is. If you are all in 
agreement right now that it can't happen prior to that time and 
that it is going to take the deliberative process from October 
all the way through, what, the middle of January?
    Mr. Diaz. That is what is in the schedule, sir. Like 
Commissioner Merrifield said, we have already pushed the staff 
as much as we could. We actually pushed them almost----
    Senator Inhofe. Commissioner McGaffigan?
    Mr. McGaffigan. Chairman Inhofe, we had significant 
negative comment on this 550-page rule before we issued it. 
Because we put it out while we were contemplating whether to 
put it out. I am the one commissioner who voted against it and 
wanted it to be pared down.
    I have some hope that, as I put it before the staff, 
through the help of public stakeholders, we will find the 
jewels that really need to be done in this dump truck of a 
rule. But one problem we have is this is a 550-page monstrosity 
that we put out for public comments. I personally think a vast 
quantity of it doesn't need to be enacted and we would have 
better regulatory stability if it were not enacted in final 
form.
    So we are just going to have to see how the staff interacts 
with the stakeholders during this administrative procedure.
    Senator Inhofe. But do you agree that it is realistic that 
January we will have your rule?
    Mr. McGaffigan. If the staff pares it down----
    Senator Inhofe. Well, if you say that, then they won't.
    Mr. McGaffigan. Well, sir, I'm delivering a message right 
now----
    Mr. Diaz. Sir, the staff is ready to deliver. The draft 
rule is out. They know what the requirements of the 
Commission----
    Senator Inhofe. Well, OK, let me make a request of the 
chairman here that if that isn't out, I request a meeting on 
Wednesday, January 24, 2007. Does that sound reasonable to you, 
so we can find out at that point if it's not, why it's not?
    Mr. Jaczko. Mr. Chairman, if I could just add briefly. I 
think the Commission is very much committed, if we do get a 
rule from staff in October that we can act on that in a very 
expeditious manner. I think it's something the Commission is 
committed to acting on certainly before the January 2007 date.
    Senator Inhofe. In my opening statement, and I will re-read 
the one short paragraph, I said I understand that only one 
major regulatory change incorporating risk has been completed, 
which was Part 50.69, special treatment rule, which the NRC 
began in 1999 and wasn't completed until 2004.
    Now, we have probably five or six others that are out there 
that were started around 1999, maybe addressing the Part 52 or 
another part of this. I would ask you, the two-part question 
here is, was that time that it took for that one, the 5 years, 
was that reasonable? Is that what you thought in 1999 it would 
take? And No. 2, what about the other pending applications that 
were there at that time?
    Mr. Diaz. Well, sir, first let me just say that personally 
this is kind of music to my ears. I do like risk and 
performance based regulation. I have been advocating it since 
my very first days in the Commission.
    No, it was not reasonable. It was a long period of time. 
However, it was done in a very open way with the industry and 
the stakeholders. It was a difficult rule, because from the----
    Senator Inhofe. So is that reasonable, 5 years?
    Mr. Diaz. No, it was not.
    Senator Inhofe. OK. Let's, because we are operating on a 
time schedule here, let me mention, I understand that it is, 
and you have said this before, Mr. Chairman, that it is the 
responsibility of each applicant to submit a complete and 
quality application that meets all of the NRC's requirements 
and guidance. I think the problem is that the guidance is a 
moving target. I think that they in their minds are investing 
their money, they are in a hurry, they want to comply with 
everything. They are submitting a good application.
    But then when things change here, then they have to go 
back, and this is a, I am wondering if there isn't a way that 
even though you can't finalize it, you can come up with a 
definitive, prescriptive guidance document so that they would 
not find themselves, so there are certain things with which 
they could comply during this period of time where they 
wouldn't have to go back and start a good deal of it over 
again. Is that reasonable?
    Mr. Diaz. That is very reasonable, sir, and we are working 
both in the guidance document and in the standard review plans 
to try to finalize them, upgrade them so that they will be 
usable. It is not that they don't exist. It is that they don't 
exist to do the work that they need to do now.
    Senator Inhofe. Some of the problems, let me address a 
couple of them in the 1970's and 1980's, one of them caused the 
licensing process to bog down. That timeframe was that there 
was no in to reopening issues during the licensing process. 
Now, that's something I remember we talked about this some time 
ago. Have you taken steps to address this problem of reopening 
and having to go back, and if so, how have you done this?
    Mr. Diaz. Sir, there are two aspects of this. One is the 
technical reviews of issues and the other is the issues of the 
hearing process. I really----
    Senator Inhofe. That's great, I was going to get to the 
hearing process next. Go ahead.
    Mr. Diaz. OK. The issues on the technical reviews, I think 
we have now in place a process that is sound, that will allow 
us to in a timely manner conduct the reviews. Again, I will say 
that this is a two-way street. Sometimes when we ask for 
additional information, the information sometimes doesn't come 
the way it is. That is why I keep insisting that we will stick 
to schedules, but the licenses need to provide us with the 
right quality and they need to provide us with the right 
answers so we can keep the process on a timely manner.
    Senator Inhofe. So you think you have taken steps to make 
sure your licensing boards meet schedules and milestones for 
completing hearings?
    Mr. Diaz. Yes, sir. I think that Commissioner Merrifield 
actually puts a significant amount of time in these, maybe he 
would be able to answer that.
    Mr. Merrifield. Mr. Chairman, we went ahead and we rewrote 
part 2 of our regulations, which relates to how we manage these 
hearing type proceedings. We recognize they did not have the 
discipline in them and there were problems in the past. We 
tried to inject in a system which is more effective, more 
efficient, will resolve concerns of the parties at hand. We 
have improved case management practices we put in, we have 
expectations for our judges, depending on the type of legal 
proceeding. We have told them how long we think that proceeding 
should occur. If they fail to meet those time lines, they have 
to come back to the Commission and where appropriate, the 
Commission can intervene to tell them they need to move through 
that process in a more disciplined way.
    We have also changed it such that not all of our 
proceedings are the old formal style proceedings. We have moved 
to a more informal process. We think this too will allow the 
issues to come to the fore in a quicker way and will allow the 
parties to resolve those and move forward with a solid decision 
by our boards.
    Senator Inhofe. Well, Commissioner Merrifield, you were the 
staff director for our former chairman up here. So you 
understand where I am coming from.
    Mr. Merrifield. I do.
    Senator Inhofe. I will just make you my point man to make 
sure that happens.
    Mr. Merrifield. I will be happy to do that, Mr. Chairman.
    Senator Inhofe. All right, thank you, Mr. Chairman. I am 
sorry I took so long.
    Senator Voinovich. I understand from Senator Jeffords that 
he is going to allow Senator Obama to ask his questions, 
because apparently Senator Obama has another meeting that he 
has to be at. Senator Obama.
    Senator Obama. Thank you so much, Mr. Chairman. Thank you, 
Senator Jeffords, for your gracious allowance.
    I am going to focus a little bit on the situation with the 
tritium discharges in the Exelon Braidwood Generating Station. 
As you know, this has generated quite a bit of concern in my 
State. I recognize that there are some broader issues that we 
have been discussing here today, but as I mentioned in my 
opening statement, I think that if we can't generate public 
confidence about the safety and security of nuclear power, then 
it is going to be hard for us to move in systematic ways to 
utilize nuclear energy in the ways that I think it can be used 
to relieve some of the energy problems that we have in this 
country. So I think this is sort of a microcosm of some larger 
issues that I would like to see raised.
    My understanding is that in both 1998 and 2000, 3 million 
gallons of tritiated water leaked into the groundwater from the 
blowdown line at the nuclear plant in Braidwood, IL. I am 
wondering, to your knowledge, did Exelon know at the time that 
it was tritiated water? Does anybody know?
    Mr. Diaz. It could very well be that Commonwealth Edison, 
that was managing the plant, knew it was tritiated water.
    Senator Clinton. Mr. Chairman, could we ask the witness to 
speak into the microphone, please?
    Mr. Diaz. I'm sorry. But it was really never treated as a 
major issue. So the Commonwealth, which was operating the plant 
at the time, they surely must have known that this water 
contained traces of tritium. How the contamination was and the 
extent of it, I am not sure that the Commonwealth knew, neither 
did we know.
    Senator Obama. OK. As I understand it, the NRC has a 
representative onsite at every nuclear power plant, is that 
correct?
    Mr. Diaz. That is correct.
    Senator Obama. So what are the obligations of this 
representative? How quickly would your site representative know 
of any unplanned discharge? How quickly would NRC officials at 
headquarter be informed of the discharge?
    Mr. Diaz. They should know immediately of every unplanned 
discharge that poses any significant health risk to the public 
to the public health and safety, or any significant hazard to 
the public health and safety. So they are there, they should 
know, they should be informed. The plant should be informed, we 
should be informed. And to your point, if there is something 
significant, that any radiological protection measures should 
be considered, I think we would notify the local and the State 
officials, sir.
    Senator Obama. I want to get to the public reporting in a 
second. But just to stay focused on the facility itself, since 
this time, what has the NRC been doing to prevent these kinds 
of leaks from occurring again in the future?
    Mr. Diaz. Some of these leaks are really unplanned leaks. 
In other words, it is not part of the procedures of the plant. 
We have of course in all power plants and all industrial 
complexes, two types of releases. Those are controlled and 
those are uncontrolled. This goes into the uncontrolled release 
category. Therefore, it received additional attention.
    When a release of significant amounts of water takes place 
in any power plant, that's obviously, you can see that that 
certainly would be noticed. I think it was noticed. The fact 
that tritium is in all these power plants is, I hate to use the 
word, but it is a normal customer. It is always there. It is 
always present. We might have tended to remove some of the 
significance.
    Let me just assure you that for the last 2 months, we have 
been focusing on it. We have a new tritium task force. We have 
put a web site that deals with the tritium issues. We are 
interacting strongly with every one of our licensees, and we 
are moving forward to take care of the potential radiological 
protection issue that is associated with it.
    Senator Obama. OK, I just want to make clear here, when you 
say there are unplanned leaks, unplanned discharges versus 
planned discharges, the general public thinks nothing should be 
unplanned when it comes to a nuclear facility, right? So the 
minute you say unplanned discharges, I am not an engineer, but 
I like everything planned.
    Mr. Diaz. But things do happen.
    Senator Obama. So these are accidents that are occurring?
    Mr. Diaz. These are, I would call them incidents, because 
they are not an accident in the sense that they cause a 
tremendous amount of problems.
    But yes, they are incidents and they are unplanned.
    Senator Obama. If I spill a cup of coffee, it is still an 
accident. I mean, I didn't do it on purpose. I may be able to 
clean it up, but--OK.
    Mr. McGaffigan. Sir, we have performance indicators where 
we look for things that are significant from a safety 
perspective, and we follow those very, very, very carefully. On 
safety system actuations, it shouldn't occur, scrams of a plant 
that shouldn't occur. These things do, as the chairman said, 
occur. The slight, the distinction with tritiated water is that 
it doesn't rise to the level of a scram of safety system 
actuation or of a significant safety system. Because the public 
health and safety consequences are expected to be very, very 
much smaller.
    Senator Obama. I understand. Is there some mechanism 
whereby you systematically look for signs of a public health 
impact from repeated unplanned discharges or do you just sort 
of estimate, well, here is the amount of leakage that took 
place, we figure this is not going to be a big deal? Or do you 
actively go and look, see what's happening with the 
groundwater, have it tested?
    Mr. Diaz. I believe that in the case of small amounts of 
tritium that we have seen in different facilities, we take it 
as what it is. Tritium is a normal component of water 
everywhere. The EPA puts significant levels of tritium, 20 
picocuries per liter of tritium can be in drinking water. If a 
person drinks 20 picocuries per liter of tritium for a year, 
that means that is all he consumes is this tritiated water, he 
will get about 4 millirems of internal body dose, which is 
about a 4 percent of the dose that will actually allow from a 
member of the public, or 1 percent of the normal dose that they 
would take from the environment.
    So tritium is a bad customer in the sense that it shows 
everywhere. It is not one of those isotopes that comes 
immediately as one of the most threatening to public health and 
safety. Therefore we deal with it in a safety significant 
manner.
    Mr. McGaffigan. Sir, just to give you a perspective, and I 
always do these things to you, I am sorry, if one drinks two 
liters of water a day for a year of 20,000 picocuries per liter 
water, as the Chairman said, you get 4 millirems, which is 
about one-twentieth of what you get working in the Capitol. 
Because the Capitol has a lot of granite in it and a lot of 
thorium and uranium and radium.
    So these are very, very protective levels. This tritium is 
about the most benign radioactive substance you can imagine.
    Senator Obama. Look, I recognize, I read Exelon's talking 
points before coming here, and they are identical to the ones 
you just mentioned. I am not suggesting you saw them, I am just 
saying, everybody is on the same page in terms of indicating 
that, on the scale of potential hazardous substances, tritium 
is not at the top of the list.
    Mr. Jaczko. Senator, if I could just make a point, I think 
you raise a good point about the importance of this with public 
confidence. I think while these may not be planned incidents, 
they are unplanned release. I think the NRC needs to take a 
look at what we are doing to plan to respond to them and plan 
to do cleanup activities and do that in a prompt way.
    Senator Obama. Commissioner, I think that is an excellent 
point, which brings me to just a couple, two final areas of 
questioning.
    It appears that the NRC knew about these problems several 
years before it notified Illinois EPA. I am just wondering what 
our policy is, why is that, what is the relationship between 
NRC and EPA in these kinds of situations, just because they are 
closer to the ground and may have information or interaction 
with the general public that would help assure them that this 
is not a major problem?
    Mr. Diaz. Sir, we presently are looking at each and every 
one of these issues in a holistic manner. The staff is 
preparing to analyze them and brief the Commission. The 
Commission will take a comprehensive look at it, and we will 
be, when we finish this process, we will do it as soon as 
possible to give you a complete look at both what the tritium 
situation is, as well as the way that is monitored, the 
environmental situation and also the communication situation. 
We will be pleased to submit that to you for the record.
    [The referenced information can be found on page 54.]
    Senator Obama. Yes, sir.
    Mr. Merrifield. If I may, I think, just to put it clear 
from my standpoint, I think we take our environmental mission 
very seriously. I think we are going to look at it through 
these lessons learned panels and realize we made some mistakes, 
we could have done things better in terms of communicating both 
with the State, interactions between the NRC and the licensee, 
I think there are areas where we can find enhancements.
    We can talk all we want about the technical issues 
associated with how dangerous these substances are. But the 
point you are trying to make, and I understand it, is the 
people who live around these plants are very concerned. We need 
to recognize that. We need to explain what the facts are, we 
need to improve the way that we provide that information to 
people so they can get a greater sense of what is going on and 
feel more confident.
    Senator Obama. Mr. Commissioner, I agree with you. I know I 
am running out of time or have run out of time. But if folks 
would just bear with me for two more questions. One, currently 
what is the trigger for reportable events? How severe does an 
event have to be before you inform local and State officials?
    Mr. Diaz. Sir, we have what we call our Part 20, which 
establishes what releases are and what are the triggering 
points. We normally do not wait, in many occasions, to have, to 
reach what is called a permissible level before we interact 
with local officials. I think it mostly depends on the 
circumstances and how, whether there is a significant release 
that has taken place that is actually not controlled versus 
sometimes we have controlled release that are of a significant 
nature, but they are way below the limits.
    So there is a whole variety of circumstances. I think the 
point that we're getting, and getting very clear, is that there 
might be a need to increase our communications with local and 
State officials on the seriousness of these issues. Your point 
is duly noted.
    Senator Obama. Good. I just will close by saying this, and 
maybe, Commissioner, you can have the last word. I have 
introduced legislation, I would like my colleagues on the 
committee to know that I have introduced this legislation. It 
is very simple. All it does is it simply says, when these 
events occur, you need to inform the local and State officials.
    Given the example that you are using right now, I think it 
would be terrific if, let's say, the county board chairman in 
Will County, who wrote me a letter saying, I am greatly 
concerned with the revelation that radioactive wastewater has 
been released. He had some sense that in fact this was 
something that could potentially be dealt with.
    Senator Voinovich. Senator Obama, your time is up.
    Senator Obama. I appreciate that, Mr. Chairman.
    So I would just ask that those on this committee, as well 
as the Commissioners, work carefully to try to see if we can 
get this system, these systems approved. Thank you for your 
forbearance, Mr. Chairman.
    Senator Voinovich. Senator Jeffords.
    Senator Jeffords. Thank you, Mr. Chairman.
    Chairman Diaz, on April 6, 2005, the National Academy of 
Sciences released a report on the safety and security of 
commercial spent fuel storage. About a third of the U.S. 
nuclear facilities are designed with a spent fuel pool above 
ground, including the Vermont Yankee facility in my State. I am 
repeatedly asked by my constituents what NRC is doing to 
implement the report recommendations.
    Mr. Diaz. Thank you, Senator Jeffords. We have taken that 
report to heart. We have implemented a majority of the 
recommendations of the National Academies. However, in order to 
do that well, we undertook a specific assessment of every site, 
site by site. In other words, rather than look at it 
generically and say, this is what we do, we actually conducted, 
the licensees did, and we conducted independent assessments of 
the spent fuel and the spent fuel situations and even the dry 
cask situations, on all of our facilities. That study was 
completed in December 2005. We are now putting together the 
report recommendations.
    In the meantime, we have been effecting what we call 
mitigating strategies at each one of these facilities. I can 
assure you that every one of the spent fuel pools in the 
country has additional mitigating measures that makes them 
safer and in many ways goes a long way or beyond where the 
National Academies recommendation was.
    Senator Jeffords. I know that the results are classified, 
and I can't share them with my constituents. Will NRC 
communicate the results of the assessments it has done to the 
public in unclassified form?
    Mr. Diaz. Sir, when we finish the final analysis and 
discuss it fully with the licensees and it is vetted in the 
Commission, we will make an effort to release to the public 
those parts of the report that will not compromise the safety 
and security of the people of the United States. So we will try 
to extract from it whatever components should be in the public 
domain and we will maintain secret and classified those that 
could be an issue by terrorists or other malevolent types of 
uses.
    Senator Jeffords. Last week, the Commission voted to deny a 
request to stay the power upgrade at Vermont Yankee until after 
planned hearings were completed. In power upgrade cases, a 
hearing may be requested but it's not required.
    A hearing has been granted for Vermont Yankee, and it will 
be the first extended power upgrade to have a hearing. In cases 
of license extensions now under consideration at Vermont 
Yankee, hearings are required. Generally, how often is it the 
case, and in what circumstances does NRC issue a change to a 
license before completing the hearing process?
    Mr. Diaz. Senator, I am going to turn to Commissioner 
Lyons, because he was just in Vermont Yankee. He is now our 
resident expert on the issue.
    Mr. Lyons. Senator Jeffords, I can address part of your 
question, I believe. I was at Vermont Yankee within the last 10 
days, and I went there specifically to better understand and 
discuss not only the NRC's oversight of the power upgrades, but 
also the licensees' preparation and to better understand the 
license conditions. This isn't quite getting to your point, but 
I can, I think you are aware that as part of those license 
conditions, there was a requirement for a hold at each 5 
percent increment for, and during and after that hold, the NRC 
would analyze, along with the licensee, the results obtained 
from the instrumentation on that upgrade.
    At the moment, the process is working. After the first 5 
percent operate, there was one indicator that was somewhat 
outside of the anticipated range. Because of that, we are 
analyzing, as is the licensee, and there will not be additional 
upgrades until that indicator is well understood, and we can be 
assured of safe operation.
    In the meantime, as you indicated, we will be awaiting the 
outcome of the licensing board review, and of course, we will 
be the final appeal of that licensing board.
    Mr. McGaffigan. Senator Jeffords, on your question, I could 
just say that the vast majority of licensing actions that 
appear before the Commission, the staff is able to make a so-
called no significant hazards determination, consideration 
determination. The hearings are post hearings. In some cases, 
such as the new plants, a prior hearing is required. But in the 
vast majority of cases, normal licensing actions of the staff, 
no significant hazards consideration is determined by the staff 
and the hearing is a post hearing. In all previous power 
upgrades, the staff has made a no significant hazards 
determination.
    Mr. Diaz. In other words, Senator, the Act requires that 
the staff makes a no significant hazards determination and when 
they have reached that point, they issue a license. Any 
conditions will then be dealt after that license has been 
issued. In this particular case, that is what happened.
    Senator Jeffords. Let me clarify your response. Could the 
license be extended another 20 years at Vermont Yankee before 
the hearing process has concluded, as happened with the update?
    Mr. Diaz. Yes, sir, it could.
    Mr. McGaffigan. In that case, the hearing would almost 
surely be completed before the period of extended operation 
began, because that is still years away. But the license could 
be issued. There is always the possibility under our process 
that the board and ultimately the Commission could reach the 
opposite determination, and the licensee at its own risk 
proceeds because it might have to undo what was done.
    But it is less of an issue in license renewal, because the 
time periods are much longer.
    Mr. Diaz. In other words, there is always several years 
between the issue of a licensee renewal and the time that the 
license renewal takes place. In this particular case, that is 
absolutely still correct. There will be time in between the 
issuance of the license and the time that the license renewal 
will be effective.
    Senator Jeffords. From a constituent perspective, when 
changes to a license are made before hearings are completed, it 
makes it appear that the hearings have no value and the outcome 
doesn't matter. I know all of you believe that is not the case. 
The Commission seeks to remain neutral, as you can implement 
any changes to a license that result from the hearing process.
    Chairman Diaz, will you commit to me to have the Commission 
consider this issue, so that we can insure the constituents 
have greater confidence?
    Mr. Diaz. Sir, we can commit to you that we will deliberate 
and fairly reach a decision that is unbiased and in no way 
takes anything under consideration but the safety of the people 
of Vermont.
    Mr. Jaczko. Senator, if I could add on this point, the 
provision that allows us, with a license amendment, to move 
forward before the hearing is complete is a very unique 
provision that applies just to license amendments. In this 
case, it is something that I do not believe was applied 
appropriately. It is something that I intend to address with my 
fellow Commissioners as we work forward on this issue.
    Senator Jeffords. As a part of the upgrade process at 
Vermont Yankee, the NRC conducted an engineering assessment at 
the State of Vermont's request. The delegation supported that 
action. My State found this information helpful. The NRC used 
the inspection results in its consideration of the upgrade.
    This was the first time that the NRC's evaluation of an 
extended power upgrade included a physical inspection. Is the 
Commission considering revising its guidelines to make physical 
inspections a normal part of the extended power upgrade 
process? Or at least available for the States on request?
    Mr. Diaz. Sir, we have now in place what we call risk-
informed or special engineering inspections that were used at 
Vermont Yankee. It was a very good process. I think that we 
will certainly consider in any similar type of occurrence to 
conduct an engineering inspection that will assure that the 
facility, especially the facility safety systems, are operating 
and will continue to operate as designed.
    Senator Jeffords. Thank you very much, Mr. Chairman.
    Senator Voinovich. Senator Lautenberg, I want to say that I 
appreciate your patience. You are one of the most conscientious 
members that we have of this Committee. I am looking forward to 
hearing your questions to the Commission.
    Senator Lautenberg. I hope that the Commission is as well, 
Mr. Chairman.
    [Laughter.]
    Senator Lautenberg. Thank you very much.
    I want to just, Commissioner Diaz, just go back to 
something that we kind of passed over before, and that relates 
to the staffing. Are you presently short of staff? Is there 
anything that perhaps could have been done more rapidly if your 
staffing was more complete?
    Mr. Diaz. Sir, we couldn't staff more rapidly, because we 
did not have the resources to do so. We have been very well 
supported, and I thank the committee for the support this last 
year. But the reality was that we didn't--there is another 
chart in here that shows what happens to the new nuclear power 
plant licensing requests.
    Senator Lautenberg. I saw that. But there is a lot of 
anxiety for review where there is more than resolution in some 
of the things. Particularly, Commissioner Merrifield----
    Mr. McGaffigan. Senator Lautenberg, I would like to 
supplement. Irrespective of the potential for new plant orders, 
which has really increased the demand for our staff, we 
recognized some years ago that we were going to have some aging 
demographic issues, that we were going to have a number of our 
staff who were going to retire. We needed to and we did 
reestablish our connections to colleges and universities. So we 
started our aggressive recruitment program actually 4 or 5 
years ago.
    Senator Carper asked a question about what are we doing 
about SES retirements. We recognized as well we were going to 
have a problem with this. So we, 5 years ago----
    Senator Lautenberg. I don't mean to cut you off, but I am 
concerned about this in the contemporary situation. In the 
State of New Jersey, the ASL Board has denied hearing of the 
contentions by the New Jersey DEP and some environmental groups 
on the review for Oyster Creek. As you all know, we are going 
through a major change in structure and ownership. Exelon comes 
in and Public Service Electric and Gas gets merged into that 
company.
    We heard fairly crisp detail from Senator Obama about 
tritium and there are safety concerns generally. Here we have 
Oyster Creek, 40 years old. And questions of what would that 
technology, I believe, would not be used today. It is out of 
fashion. It has had some problems, incidents, accidents. I was 
interested in that definition as well. But the fact it, it 
worries the hell out of people, whether it's an I or an A. We 
are concerned about it.
    Now, is it possible that because of this concern and 
because of these incidents, vulnerability, now the security 
issues have become major issues confronting us, would you be 
able to take your inherent capacity and review the ASLB's 
decision on not to hear these petitions? I think that's an 
important first step, because time is running out. We'd like to 
know what's going to be done there.
    I frankly am going to request that there be a field 
hearing. I don't know what kind of supervision you have over 
the ASLB. They are a integral part of the NRC. But does that 
include management instruction?
    Mr. Diaz. No, sir, it does not. We maintain a separation to 
allow the boards to make their decisions. We can take review of 
the Board's decision----
    Senator Lautenberg. At your option?
    Mr. Diaz. Right, it is our option. And we do that.
    Senator Lautenberg. Well, in this situation, would you 
consider exercising your inherent supervisory authority to 
order additional public hearings on Oyster Creek?
    Mr. Diaz. Sir, we will always consider, if there is an 
issue of public health and safety or issue of adequate 
protection, what the Commission would do. I don't see presently 
that we have that issue. But I will let my fellow commissioners 
answer.
    Mr. McGaffigan. Sir, we are like an appellate court. We're 
hamstrung in talking to you about this just as Judge Roberts 
and Judge Alito, when they were recently before the Judiciary 
Committee, this is an issue that is likely to be appealed to us 
in the near term. We can't show our cards one way or the other 
as to how we might rule on such an appeal.
    Senator Lautenberg. You have the responsibility of, with 
safety as the rule, of trying to move these things along. I'm 
not encouraging rush at the expense of safety or good 
management. But the fact of the matter is that I think there's 
a legitimate reason to hear the contentions by our widely 
respected DEP. I'm appealing now to get some expeditious 
treatment to a hearing. I'm not asking for an outcome. I don't 
want an outcome that would be contrary to good science or your 
judgment. What do we do?
    Mr. Diaz. Well, the Board is trying to set the hearing time 
now. I believe that hearing will be held and will be held near 
Oyster Creek, to make it available. I understand that the staff 
has a public briefing set up for early summer to make sure that 
the people are informed. So the processes are going. We hear 
you, that there is an urgency. But these things do take a 
tremendous amount of deliberation and discipline, because you 
want to be fair to all parties involved.
    So we stay away significantly from getting involved, not in 
the management, but the Commission does ask the Board with 
certain frequency to make sure they deliver with expediency 
both the hearing process and the decisions. That we can do.
    Mr. McGaffigan. Senator, if the State felt it was not being 
treated fairly in its decision by the board, that is obviously 
something they could appeal, they, the State, could appeal to 
the Commission as well. So that is yet another opportunity if 
they don't feel they are being heard in a decision of the 
Board, then that is obviously something we could look at.
    Senator Lautenberg. In response to an earlier question, it 
was confirmed that a licensed decision can be made at the staff 
level without involvement of the Commission. I heard that 
correctly, I assume.
    We are very concerned for the evacuation facility 
available, the density of the population around Oyster Creek. 
So I would like to know whether I can get a commitment that the 
full Commission will engage itself in the review and sign off 
on any staff decision regarding whether or not to renew Oyster 
Creek's operating license.
    Mr. Diaz. Sir, the way that our process is now set is for 
the staff to make the final determination on the license 
renewal and that authority has been delegated to the Director 
of NOR. Having said that, the Commission can take review of any 
one of those issues, any one Commissioner can ask for it and 
any one Commissioner, after reviewing all of the documentation 
and the decisions that have been made, could actually then take 
additional review of the issue.
    I don't think it is appropriate for, it is definitely not 
for me, I don't know for my fellow Commissioners, to commit to 
do that unless there is a significant health and safety issue 
that pops out of this analysis.
    Senator Lautenberg. There have been enough scares, let me 
say, over the years, with the age of the plant and once again, 
the technology and the rusting of some of the structure. I 
would plead with you to satisfy the needs and the concerns of 
the people that are dependent on Oyster Creek, but those who 
are also worried about it. I would like to get an assurance 
that as, I don't want to trivialize it and call it backstop, 
but I would like to know that the Commission or a Commissioner 
will look at this and review any decision made by the staff to 
confirm that there shouldn't be any concerns about that.
    Mr. Diaz. Well, sir, let me give you, I think I can do this 
on behalf of the Commission, a commitment to ensure that we 
continue very strong oversight over Oyster Creek, that we will 
review issues, that we will make sure that they fix whatever 
they have to fix, that they take appropriate corrective 
actions, that they manage the facility with the safety 
requirements that they have to.
    Once it comes down to decisions that in many ways involve a 
series of processes, I think the Commission will have to wait 
until we get to that point to make additional commitments.
    Mr. McGaffigan. Mr. Chairman, I would say this. The Oyster 
Creek license renewal, the current license expires in April 
2009. So there are 3 years ahead of this before there would be 
the circumstance where that would lapse. The staff will be 
conducting its review.
    As the Act is set out, there are legal separations in order 
to provide the protections for interested parties. If the staff 
were to act in a way that New Jersey objected to, it would have 
the opportunity to go before the Atomic Safety and Licensing 
Board with contentions arguing why a license renewal should not 
be conducted. If that board acted in a way that went against 
the interest of New Jersey, the Commission would in fact be the 
final level of appeal if the State of New Jersey wished to 
continue through our process.
    So in that regard, if the State felt it was not being 
appropriately treated, we would in fact be the final review of 
the staff decision.
    Senator Lautenberg. Thanks. Thanks very much, Mr. Chairman, 
and I want your interest, as you see.
    Senator Voinovich. Thank you, Senator Lautenberg.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, for holding this 
hearing. Thank you to Chairman Diaz and the other 
Commissioners.
    As you might expect, I want to talk to you about Indian 
Point. I can't imagine that you would be surprised by that. I 
want to thank Commissioner Jaczko for going to Indian Point and 
meeting with a number of the local officials in the area.
    But before I do, I want briefly to note that in your 
testimony, you indicated you are in the process of implementing 
the provisions of my Dirty Bomb bill. I really appreciate that, 
because the Dirty Bomb Prevention bill that we've worked on, in 
conjunction with Senators Voinovich, Inhofe, Jeffords, and 
Carper are very important to us and we look forward to seeing 
how you develop the implementation of that. I thank you for it.
    I have asked my staff if they would to follow up and I 
would really appreciate the NRC coming to brief my staff and 
the other interested Senators' staff here on the committee if 
we could set that up. Because with all of the debate about the 
port, the Dirty Bomb Prevention bill is even more important.
    Now back to Indian Point. Chairman Diaz, and Commissioners, 
you and I have discussed Indian Point many times, both in 
hearings like today and in private hearings and in private 
meetings. I think we have made progress in some areas. Last 
year with the help of Senators Inhofe, Jeffords and Voinovich, 
I drafted legislation to require backup power for the Indian 
Point emergency notification system, including its sirens. That 
legislation was ultimately included in the Energy bill that 
passed last summer. I know that the NRC has been working 
closely with Entergy to see that the new system gets in place 
by January of next year.
    However, today in the newspaper, once again, glitch 
silences Indian Point sirens. We are just snakebit. I am deeply 
concerned that it is no accident or incident. It is a pattern 
that we just can't seem to get problems resolved and be able to 
take a deep breath here.
    Shortly after the siren issue was addressed in the Energy 
bill, other problems cropped up at the plant. Last fall we 
received word there was a leak from the spent fuel pools at 
Indian Point. When the leak was reported, we found out that 
Entergy didn't tell the NRC about the leak for a number of 
weeks. You and I met to discuss this issue last October, and as 
I said at the time, it seems like for every step we take 
forward at Indian Point we take at least one backwards.
    During that meeting, you committed you would put enhanced 
oversight in place and I appreciated that. But unfortunately, 
the problems continue. In addition to the sirens still not 
adequately working, we recently found out that the New York 
Department of Environmental Conservation had withheld 
information from the public about detecting Strontium 90 in 
wells that had been drilled to determine the extent of 
groundwater contamination associated in the first instance with 
tritium. So now we've got tritium, we've got Strontium 90. I 
know that Senator Obama raised these issues because he has 
experienced a similar but at least so far as we know a far more 
serious leak in the State of Illinois.
    In response to that problem, he has introduced legislation 
that would require plants to quickly disclose any such leaks to 
the NRC and to the State and to the county in which the 
facility is located. Now, to me that just makes common sense. I 
hope that you will support Senator Obama's legislation. It 
seems that it is something that NRC could even probably require 
right now under current law which would perhaps obviate the 
necessity for legislation. So I would like you to address that 
issue as well.
    Then I want to raise a larger question. That is, whether 
there should be an independent safety assessment for Indian 
Point. Now, as we all know, public confidence in the plant has 
steadily eroded by a series of mishaps, misinformation and 
failure to communicate. So when the NRC completes its annual 
assessment, as happened recently, and gives the plant a clean 
bill of health, it doesn't inspire public confidence because 
local officials and the public pick up the newspaper a day or 
two later and something else has happened.
    A number of local and Federal officials, both Republicans 
and Democrats, have recently called on the NRC to conduct the 
independent safety assessment. Several House members, again, 
both Republicans and Democrats, have introduced legislation to 
require that the NRC conduct such an assessment. This would 
result in extremely thorough review of the plant's operations, 
as well as its evacuation plans, which as you know has been the 
subject of intense concern in the area around the plant.
    Now, I personally think this idea makes a lot of sense for 
several reasons. I know that the NRC thinks that the plant is 
being operated safely. I know that the operator, Entergy, 
thinks that the plant is being operated safely. So I don't 
understand why such a review would be resisted. I know it's 
unusual, but the fact is that Indian Point is uniquely situated 
among all of our country's reactors in its proximity to such a 
heavily populated major urban center.
    So I think the NRC ought to conduct such an assessment. I 
for one would not prejudge the outcome. Going through the 
process can only increase public confidence that the plant is 
being run well, as the NRC says, and that it therefore holds up 
to this extremely high level of scrutiny.
    So I guess my questions come down to these. First, will you 
support legislation such as that introduced by Senator Obama to 
require disclosure of leaks and other releases, or will you 
commit to implement such a requirement on your own? Mr. 
Chairman.
    Mr. Diaz. Thank you, Senator Clinton. I think you and I 
have talked several times about the fact that somehow the 
licensee of Indian Point likes to be in the news and you and I 
don't understand that very well. We also of course, we would 
both like to have them more quiet or lower profile.
    Having said that, let me address a couple of issues and 
then I am going to turn to Commissioner Jaczko, who was just 
there recently to talk about the issue of the sirens and the 
tritium and so forth. We talk about the issue of the 
independent safety assessment. You heard Senator Lautenberg, 
what the NRC conducted for Vermont Yankee, which was a special 
type of engineering assessment that is safety focused that we 
had a small part in creating, a couple of years ago, and that 
is working very well.
    We are going to conduct that type of assessment early next 
year in Indian Point. We will have people that are not the 
typical NRCers that work in the plant and contractors that have 
no relationship with Indian Point or any of the Entergy 
operations, to actually conduct a safety assessment, an 
engineering safety assessment of Indian Point. We call it an 
independent safety assessment because we are an independent 
Agency. It will be conducted completely thoroughly and 
independent of any undue influences.
    On the issue of the tritium and Senator Obama's 
legislation, I would repeat what I told Senator Obama, we are 
taking this very seriously. We think that it's a radiological 
protection issue, not a significant public health issue, 
because tritium is just a minimal hazard as a radiological 
substance. However, it does have all of the connotations that 
you and have talked about for some time, public confidence, 
information. So the staff will review the issue, the Commission 
will deliberate on it and we will deliver a product that will 
address the issue, once we have had a chance to fully consider 
all of the aspects of it.
    Senator Clinton. Mr. Chairman, do you also consider 
Strontium 90 to be in that category, the same category as 
tritium?
    Mr. Diaz. No.
    Senator Clinton. We are now dealing with the Strontium 90 
and that's a deeper concern.
    Mr. Diaz. No, Strontium 90 means a totally different 
category. We are not certain that there is a Strontium 90 and 
there actually were, as I understand it, there were three 
samples. One of the samples that the State took and went to a 
special set of equipment showed a small, very small amount of 
Strontium 90. We are trying to confirm that Strontium 90 exists 
all over the eastern Seaboard from the weapons. It is 
decreasing, as it should, with time. So is tritium.
    The way the things are detected and the cleanness of the 
sample and the labs have a lot to do with it. We are on top of 
the issue, Senator. We will make sure that whatever it is, we 
will find out and we will be very pleased to communicate with 
you on that fact.
    Senator Clinton. Let me just clarify the commitment, which 
I very much appreciate, to the independent safety assessment. 
Is that in accordance with the legislation that has been 
introduced and also the request by Congresswoman Kelly?
    Mr. Diaz. I don't know that it is exactly the same. This is 
something that we believe we must have available to us as a 
tool. I believe that what we call an engineering safety 
assessment is a special program that was developed in the last 
2 years to address the fact that there were engineering issues 
showing up at different facilities and that we needed to pay 
attention to the safety systems. So we developed this new type 
of inspection that was used in Vermont Yankee and is now being 
used in several places. We think it is an excellent set of 
inspections, and we believe it is independent. I am not sure 
that it matches exactly what the legislation was, but I can 
tell you it is a very good set of inspections.
    Mr. McGaffigan. Senator Clinton, if I could just add, the 
last time we used the word independent safety assessment in NRC 
parlance was when Chairman Diaz and I joined the Commission in 
1996. It was used at Maine Yankee. What we meant at that time 
by an independent safety assessment was to get a group of 
people, independent of Region I, in to look at Maine Yankee. It 
was headed by a man named Ed Jordan who is now long retired. 
And he brought in contractors and NRC staff from the other 
three regions. They did a very thorough review.
    We have come a long way since 1996. We think we have a much 
better core inspection process today than we had in 1996. And 
as the Chairman said, and he is modest, this new engineering, 
risk-informed engineering assessment that we piloted a couple 
of years ago, and that he was the inventor of, is a very, very 
thorough review. So I think the spirit of Congresswoman Kelly's 
legislation is being followed in what the Chairman is talking 
about. But if people are longing for Maine Yankee style 
independent safety assessment, I think we do better today in 
our baseline program than we did then with that ISA.
    Senator Clinton. I would appreciate if I could get a letter 
to that effect, because certainly the idea of an independent 
safety assessment has a lot of credibility and support. I 
really appreciate your commitment, No. 1, to do a thorough 
safety assessment, whether we call it engineering safety or 
independent safety. I just want to be assured that it is as 
thorough and comprehensive and independent as we possibly can 
make it.
    If I could get a letter to that effect, perhaps explaining, 
as both you and Commissioner McGaffigan have just done, that we 
have come a long way, you have actually increased the 
thoroughness and the comprehensiveness of the safety 
assessments. Because I think that this is obviously very, very 
much a personal issue to the people I represent, and even to my 
neighbors. Because I live very close to Indian Point as well.
    But I also think it's part of the larger series of 
questions that are around the new push for nuclear power. I 
think that getting it right at Indian Point is going to be 
critical to the future of nuclear power for people asking for 
licenses, very far from where we are, but who will be looking 
at the entire country and the performance of the plants. So 
restoring public confidence, helping to educate the public and 
public officials, particularly at the local level, because I 
think you heard from Senator Lautenberg and Senator Obama, as 
well as myself, that they are the ones who are really on the 
front lines. The sirens don't work, there's leaks of dangerous 
sounding chemicals. It's very hard to know what to think.
    So I appreciate this. I will look forward to the letter and 
hope that we can work on this.
    Mr. Diaz. Thank you.
    Senator Voinovich. Thank you, Senator Clinton.
    I am going to make some comments and then ask some more 
questions. Public relations are very important. I have got to 
tell you that over the last several years, your PR has been 
horrible. You are a public body and people are very interested 
in what you are doing. Somebody ought to sit down and figure 
out, we should have had this conversation today about Senator 
Obama and that information getting out and then somebody 
getting hold of it, and of course, always we will demagogue it. 
Tritium is the worst thing that's ever happened, and boy, off 
you go, and once the water is over the dam, guys, it's very 
difficult to bring it back.
    So somebody ought to sit down and think about what kind of 
public relations in terms of reporting to the public, reporting 
to the EPA, to the local county commissioners so you get the 
information out there before they jump to conclusions about 
something that may not be a problem. Maybe you don't think it 
is, but by golly, it's a problem for those individuals. Because 
we are the ones that hear about it, and the locals hear about 
it. That's No. 1.
    No. 2, in terms of where are we with safety in the country, 
and I think you have made great progress, I can tell you did, 
from what I can understand, at Davis-Besse, you really did a 
job over there and you are staying on top of it. I saw you did, 
over at Perry Nuclear, you got in there and did the job and 
stopped some things. I think that the lessons learned have sunk 
in.
    But again, I think it's important that you report to the 
public on a regional basis, where are we, how are we doing, 
progress has been made, still some problems. Maybe some of the 
companies may not like it that say there are still some 
problems. But I think the public should know about it and not 
be hiding out.
    So I think that's an area where a lot of work has to be 
done. If you don't, we will get legislation passed, then the 
next thing is we will legislative something else and before you 
know it, you will have no discretion left whatsoever. So that's 
the one thing.
    Second of all, this whole business about the process on 
these new COL cases. There's got to be some confidence out 
there that the process is going to be streamlined, that you're 
going to be fastidious in terms of it, that there's a beginning 
and an end. That's important to these people making 
applications, it's going to be important to their getting the 
financing they need. This is going to go on for 10 years. Some 
type of commitment should be made that you're going to move 
along in an expeditious fashion and get the job done.
    I will let you comment on the public relations.
    Mr. Diaz. All right. Sir, I almost, I'm not delighted, but 
I am very happy you asked the question, because that's what I 
have been doing for the last 3 years. Maybe too quietly. I 
realize we have not been very good and we probably still are 
far from being as good as we should be in the issue of public 
relations. But we have come a long way.
    We have changed not only the culture but the processes 
inside the NRC. Every manager and every staffer knows they need 
to communicate. Davis-Besse was a big lesson. But the reality 
is that we have been moving forward in every one of these 
issues, including, I established more than a year or so ago 
meetings with congressional delegations in different parts of 
the Nation. It got the process going. We have one major one 
going next week in Florida.
    Senator Voinovich. Let me ask you this question. Do you 
have a tickler system for the people that operate that facility 
for the NRC that come into the area to go see the chief 
editorial writer of a paper on a regular basis to include them 
in on what's going on, so they are aware of it? Because they 
are real interested. There are reporters interested in it, so 
that if you do it on a regular basis and develop a relationship 
and communications, so if something goes wrong, they know 
there's somebody they can talk to?
    Mr. Diaz. Yes, sir. We have a new Office of Public Affairs 
which is charged with maintaining this relationship, with not 
only keeping the public informed directly, but having the 
connections with the different organizations.
    Senator Voinovich. Well, I'd like to see in writing what 
the word is out there. The companies should be smart enough to 
also----
    Mr. McGaffigan. Sir, I would only say, I think the 
management of public relations in an Agency as open as ours, I 
think we are the most open regulatory body in the American 
Government. People can look at our daily event reports, they 
can look, Senator Clinton knew that yesterday there was a siren 
problem when they tested the sirens. That is because it's 
public.
    I think something that goes with the degree of openness we 
have is that we can't manage every piece of information that 
emits from us. Sometimes other people interpret it for us. So 
it's, you know, FAA does not tell you what the maintenance 
records are of the various planes that people might use to go 
home this weekend to their States. If they did, they would have 
the same problems that we do.
    We have chosen to make the information available. We make 
some attempts to manage information when we know it's really 
bad, we try to be ready with the public affairs officers, the 
talking points, as to why this is or isn't significant and what 
NRC is going to do about it. But we get caught by surprise, 
because the amount of information that goes onto our web page 
on a daily basis is enormous. There's a lot of people who read 
it, and there's a lot of people who will interpret it for us. 
So we do the best we can. I can never promise you it's going to 
be perfect.
    I do believe we should talk to the editorial boards. I 
think that's something we should do. I think the bottom line of 
your question is that we can do better. Your point is we can do 
a better job. That's what I take from your point. I agree. I 
think we can do better.
    Senator Voinovich. The companies should do a better job.
    Mr. McGaffigan. Yes, they should.
    Mr. Diaz. We agree.
    Senator Voinovich. In reviewing the NRC strategic human 
capital plan, the Commission is focusing on hiring young recent 
college graduates. How is the Commission working to fill in the 
gaps of its succession plan in recruiting and retaining the 
necessary cadre of mid-career employees, and how is the 
Commission implementing the workforce flexibilities for the NRC 
in last year's Energy bill, and is the Commission utilizing all 
available flexibilities, including those authorized in the 
Federal Workforce Flexibility Act? These would include 
flexibilities such as categorical hiring and enhanced annual 
leave.
    You hired a bunch of new folks. But one of the problems 
that I've observed from my other committee chairmanship is in 
an area of middle management, we don't do a very good job of 
bringing people in. They come in, they stay, but I'm sure in 
middle management areas you need some people from the outside 
to come in. How are you doing in regard to that?
    Mr. Diaz. We are hiring at both sides of the spectrum. We 
are hiring young people and we train them. But if I might ask 
the staff, is it 40 percent?
    Mr. Merrifield. Twenty-five percent of our hiring is 
university graduates. So 75 percent of folks that we are hiring 
are people who are in fact mid-career.
    Mr. Diaz. We are having reasonable success in attracting 
people from different areas of industries or the nuclear navy 
and areas where we find the right expertise. So we are doing 
well in the mix.
    Senator Voinovich. OK. Getting back to the research and 
test reactors. I understand that, well, they are very concerned 
about the fact that the $27 million has been zeroed out. We 
have to take care of that problem. The student enrollment in 
nuclear engineering programs at universities has increased 
substantially in the last 3 to 5 years, and you have shared 
that with me, due in large part to DOE grants and assistance. 
At MIT, student enrollment in nuclear engineering has more than 
doubled in the last 5 years. But school officials fear that the 
proposed cut, if not restored, will undo the progress they have 
achieved in the last few years.
    I just want to emphasize again how important that is in 
terms of your future recruiting. I really would like to have a 
letter drafted so that maybe all the members of this committee 
could share it with the Administration and also with the 
Appropriations Committee.
    Mr. Jaczko. Mr. Chairman, if I can make a point on that, 
too, one of the things that I think is important to keep in 
mind is, we don't just hire nuclear engineers. We hire 
electrical engineers, we hire mechanical engineers. They are in 
fact a large portion of the kinds of people that we hire.
    So this issue is broader than just what's happening with 
nuclear engineering programs. But it goes in general to the 
broader issues of engineering programs in colleges and 
universities throughout the country.
    Senator Voinovich. That's why Senator Carper and a bunch of 
us, almost 50 of us now, have supported the PACE legislation. 
Because we know how important it is that we get this thing 
going.
    Mr. McGaffigan. Senator Voinovich, there is a very good 
draft already signed by a couple of Senators named Domenici and 
Bingaman that dealt with issues other than just this. But 
there's a letter from them to Secretary Bodman on the issue of 
the zeroing of this nuclear engineering money.
    Senator Voinovich. Great. You are undertaking licensing of 
two uranium enrichment facilities, one located in New Mexico, 
the other located in Ohio. This is a major undertaking by the 
Agency. Both are at a critical juncture, and I want to know, 
does this Commission have the resources to provide oversight in 
order to ensure the goal of a timely review? Does he have the 
resources? Can you meet the time table?
    Mr. Diaz. Yes, sir. We have the resources and they are on 
schedule right now.
    Senator Voinovich. One of the questions that's been raised 
is you've got two companies that are trying to beat each other 
out in terms of who is going to open the door first. Is there a 
market for two companies doing uranium enrichment?
    Mr. Diaz. I believe they think there is. I think that's 
what they are going into the business of. It will eventually 
depend on the total demand. Right now the demand for enriched 
uranium in the world is increasing. As you see from the numbers 
we have shown it could increase in a year.
    So I cannot judge what their marketing strategies are, but 
we will do what we need to do, and that is, they gave us a good 
application, we will put it through the process. If they comply 
with the requirements, then the Commission will considering 
issuing their license.
    Senator Voinovich. Mr. Lyons.
    Mr. Lyons. Mr. Chairman, you pointed out the concerns that 
industry has on whether the COL process will move forward in an 
expeditious way. In my mind, and I think for the whole 
Commission, we have been acutely conscious of the fact that our 
performance on license applications like the enrichment plants, 
like the upgrades, like the license renewals, are also being 
judged by industry and contribute to their degree of confidence 
that we can successfully carry through the COL process.
    Mr. McGaffigan. Sir, we did an LES mandatory hearing for 
the one in New Mexico earlier this week. It really went very, 
very well. There are some issues still in play that are likely 
to be appealed to the Commission in that case. I believe with 
only a short delay of a few months, USEC is following along.
    So our hearing process under the new rules in these two 
instances has not been the horror story that we have had in the 
past and that we--it was one of the reasons we amended Part 2 
of our adjudicatory rules, so that we would have a better 
process.
    Mr. Merrifield. I think to put a finer point on it, the 
hearing process appears to be working very well, exactly as we 
had planned.
    Senator Voinovich. Very well. Well, as I said in my remarks 
at the beginning of my formal statement, I really believe that 
the NRC is going to have to be the most efficient, innovative 
that it's ever been in the history of the NRC. All these issues 
today that people have raised have an impact on the future. 
It's really important that you get the job done. Because we 
have a real crisis in the United States of America that is 
impacting on our ordinary citizens and on our economy. Part of 
developing the infrastructure of competitiveness is that 
regulatory agencies like yours have got to get a whole lot 
better.
    Chairman Diaz, in front of all your colleagues here, I want 
to congratulate you on the progress that you have made. You 
still have a long way to go. You and I are going to spend a lot 
more time together. Because I am bound and determined that 
you're going to get the job done, and I know Senator Carper and 
I want to do everything we can as members of this committee to 
help you.
    Mr. Diaz. I am looking forward to it, sir.
    Senator Voinovich. Senator Carper.
    Senator Carper. Thanks very much.
    I'm going to ask you a couple of questions, I want to tell 
you what the questions are and then I am going to make a 
statement, so you will have a chance to think about your 
answers to my questions.
    One of my closing questions is just to reiterate for us, 
what can we do to help you do your jobs better. That's No. 1.
    Second, I want to ask you to comment on the ongoing 
developments of lack of developments with respect to Iran and 
their interest in developing a nuclear capability, some of us 
think for building nuclear weapons. The idea of the enrichment 
only in the Russia approach, the idea that the Iranians should 
be able to, they want to be able to do at least a modest amount 
of enrichment in Iran, it's sort of off the beaten track a 
little bit, but if you have thoughts on that, I would welcome 
your counsel.
    The other thing, you may have gotten into this while I was 
away, I have a couple other hearings going on right now. But 
just looking over the next couple of years with respect to 
disposal of nuclear waste, we continue to retain them onsite, a 
lot of work, a lot of money has been spent on Yucca Mountain. 
How do you see the next couple of years playing out there?
    So those are the three I want to close with.
    I want to go back, Senator Voinovich was talking about the 
increase in nuclear engineering students. My oldest boy 
Christopher is a senior in high school, he graduates this June. 
He's gone to a math-science charter school in Wilmington, DE, 
very good school. Only charter school in Wilmington, and they 
produce a lot of not only good math and science students, but a 
lot of engineers and scientists and researchers.
    Senator Voinovich. I understand he's been accepted at 
Harvard.
    Senator Carper. I tell people, they say, where is he going 
to go when he graduates? I tell people he's going to go to 
Delaware Technical and Community College, and they say, he is? 
Because it's a really good high school. But then I tell them 
it's because he is going to take a summer course in auto 
mechanics, so that he can fix his mom's old Ford Explorer and 
take that to wherever he's going.
    [Laughter.]
    Senator Carper. We'll see where he ends up going. He's so 
much smarter than his father, it's just amazing, and so much 
more humble, too, I might add.
    But there are, as we visited colleges of engineering around 
the country, we have heard the very same thing, anecdotally, 
that more people want to be nuclear engineers. So that is good.
    I had my staff dig up some numbers for me last week on the 
number of engineers that were training in this country compared 
to some other countries. They came back and said that the last 
numbers we had were for 2004. In 2004, the Chinese trained and 
produced over 350,000 new engineers, we produced fewer than 
150,000. While there may be a few more nuclear engineers coming 
along, which is good, we still need, as some of our other 
Commissioners have mentioned, we need those electrical 
engineers (EEs) and those mechanical engineers and a variety of 
others, as well.
    I would just remind the Commission, if you will, several of 
us have mentioned time lines, timeliness, I did and I know 
Senator Inhofe did. I would just ask you to keep that in mind. 
It is an important thing for us.
    All right. Go back to my three questions. Just re-emphasize 
for us a couple of things that we can do to help.
    Mr. Diaz. Can I start with a small personal comment, sir? I 
love nuclear engineers. I happen to be one. So I'm totally 
biased regarding that issue. I think they make great overall 
engineers because they get both of the nuclear, the mechanical, 
the electrical, and I will put in a plug for nuclear 
engineering.
    Senator Carper. Jimmy Carter used to say the same thing.
    Mr. Diaz. All right. What can you do? I think the committee 
has been extremely helpful to us in two areas that are vital. 
We will need to have the right resources, both the financial 
resources. We had legislation last year that helped us along. 
We might have a few pieces of legislation.
    The support that we get, we really are going to need in the 
area of hiring and space. We might have to use your influence 
in different places to get the right time lines. Because we are 
out of space. We don't just--we are flat out of space. We are 
going to have a little bit of space outside, but eventually we 
need to move. We don't have space, we can't put the computers, 
we cannot have the infrastructure.
    So Senator, I believe those areas will continue to be 
important. We will continue to work with you in making sure 
that you are aware of our financial needs, of our legislative 
needs and our resource needs.
    Senator Carper. All right, good enough.
    Mr. McGaffigan. Senator, I am just going to hit on the 
space issue. We were supposed to have our training center, our 
headquarters training center moved to Bethesda by now, as a 
temporary measure, in order for people who are working in 
conference rooms and hallways currently could actually have a 
decent space to work in. That is now August. The General 
Services Administration had a contractor, the owner of the 
building we were going to move into switched to another 
building. The new owner tells us, oops, you're a training 
facility, not an office building. We have to get another permit 
from Montgomery County. And GSA has also told us--you can't fix 
that, that's just the way the Federal Government works, 
unfortunately.
    But GSA has also told us that our ultimate goal of having 
proximate office space to us in Rockville, so that we're not 
spread all over the Maryland suburbs, they think there may be a 
statutory problem, because they are supposed to have full and 
open competition. If you go to Rockville, you'll see there's a 
lot of stuff popping up around us, and we think we could have a 
pretty good competition within a half mile of headquarters. But 
you may have to legislate that. You may have to say, 
competition in this case is good enough, we don't want NRC 
stressed with people having to wander all over the Maryland 
suburbs when they're trying to process 11 simultaneous 
applications for new plants, trying to deal with Yucca 
Mountain, trying to deal with the enrichment facilities, etc.
    So that's Governmental Affairs. I look at Senator Voinovich 
because he's the dual-hatted member here.
    Senator Carper. Actually, there are two of us. We both----
    Mr. McGaffigan. Oh, you're both on Governmental Affairs. 
Well, we could use your help, I think.
    Senator Carper. When you were responding, I was thinking, 
from time to time, our delegation from Delaware will invite 
folks from another Agency that we're looking for cooperation 
from, maybe GSA, just literally to come and to meet with us. 
We'll invite in whoever has an issue or concern to join us in 
that meeting. I don't know if that might make some sense.
    Senator Voinovich. This committee has jurisdiction of GSA.
    Senator Carper. Yes.
    Mr. Merrifield. To put a fine point on it, I completely 
agree with my two fellow members. That is the most important 
thing that this committee can do to support us.
    Senator Carper. Well, we'll see what we can do. I don't 
know if this committee or Homeland Security and Government 
Affairs Committee.
    Senator Voinovich. It's this committee, we've got GSA.
    Senator Carper. The other thing I would ask, if you have 
any comments on Iran. I know our time has escaped. But forget 
Iran. Yucca Mountain and disposal of--we're out of time. It's a 
lot easier. Please.
    [Laughter.]
    Mr. Diaz. Let me quickly say one thing. I just came back 
from Russia last Sunday. I was able to meet with the, 
essentially the chief negotiator of Russia for Iran. What I can 
tell you is that it appears that Russia is aligned with the 
interests of the United States in making sure that Iran does 
not develop the capabilities to enrich uranium or proliferate. 
I think in that area, the United States and Russia are well 
aligned. We still are looking forward to a conclusion of those 
negotiations.
    Senator Carper. Good. I hope you're right. That's 
encouraging.
    Last one, on the disposal, we have all this nuclear waste 
that is building up around facilities, nuclear facilities. And 
progress out in Yucca Mountain goes slowly, as I understand it. 
Just the next couple of years, what lies ahead?
    Mr. Merrifield. I would like to, in a regulatory 
information conference I spoke quite extensively, that was the 
entirety of my speech yesterday, talking about waste. We have 
in place right now a program where the fuel was placed in the 
pools of the reactors or through the use of the dry cask 
storage facilities, which will ensure the safe storage of that 
fuel for years to come. So obviously, we spoke earlier this 
morning about wanting to see the Yucca Mountain application at 
some point, so our Nation's resolution to this issue can be 
resolved one way or the other.
    But in the interim, we do have the ability to safely store 
this fuel, so that individuals in Delaware, New Jersey and 
other parts of the country can be assured that we are dealing 
with it in a way that makes sense and is protective of public 
health, safety and the environment.
    Senator Carper. Thank you. Thanks, Mr. Chairman.
    Mr. McGaffigan. Mr. Chairman, there is one issue that is 
hanging. Senator Isakson at the outset asked us to address 
something, and we haven't had the opportunity. If you want, I 
can spend 1 minute on that, or if this was the KI to 20 mile 
issue or we can answer for the record.
    Senator Voinovich. I would prefer that, because I have 
somebody waiting in my office.
    Mr. Diaz. We will answer it for the record, sir.
    Senator Carper. If you could respond for the record, that 
would be great, thank you.
    [The referenced information can be found on page 54.]
    Senator Voinovich. Thank you very much.
    Senator Carper. Yes, thanks to all of you, very much.
    Senator Voinovich. We appreciate your being here today and 
look forward to working with you.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    [Additional statements submitted for the record follow:]
                              ----------                              

Statement of Nils J. Diaz, Chairman, U.S. Nuclear Regulatory Commission 
   Accompanied by: Edward McGaffigan, Jr., Commissioner; Jeffrey S. 
Merrifield, Commissioner; Gregory B. Jaczko, Commissioner; and Peter B. 
                          Lyons, Commissioner

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, it is a pleasure to 
appear before you today with my fellow Commissioners to discuss the 
Nuclear Regulatory Commission's (NRC's) programs. The Commission 
appreciates the support of the Subcommittee and the Committee as a 
whole, and we look forward to working with you in the future. We would 
also like to take this opportunity to thank Congress for the additional 
budgetary support that was provided last year.
    I would like to highlight our key ongoing oversight and licensing 
activities, including activities to implement the provisions of the 
Energy Policy Act of 2005 (the Act), initiatives to meet the new 
challenges posed by the dynamic nature of today's nuclear arena, and in 
particular current and anticipated new reactor licensing activities and 
human capital initiatives.

                       ENERGY POLICY ACT OF 2005

    The Commission is pleased that key legislative provisions to 
augment the oversight of nuclear facilities and materials were enacted 
in the Energy Policy Act of 2005. The NRC has begun rulemaking 
activities to implement the authorization of the possession and use of 
certain firearms by security personnel, expanded fingerprinting and 
criminal history checks, Federal criminal sanctions for the 
unauthorized introduction of dangerous weapons at nuclear facilities, 
and Federal criminal sanctions for the sabotage of additional classes 
of nuclear facilities or designated materials.
    The Commission has initiated and in some cases completed work to 
implement the other provisions in the Act. These activities include the 
following:

    <bullet> The NRC is currently preparing a rulemaking to include 
within the definition of byproduct material under our regulatory 
authority accelerator-produced material, discrete sources of radium-
226, and certain discrete sources of naturally-occurring radioactive 
material (NORM), other than source material, if these materials are 
produced, extracted or converted for use in commercial, medical, or 
research activities. In accordance with the statutory schedule, the NRC 
plans to issue a final rule by February 2007. However, the need for 
substantial stakeholder involvement is a challenge to meeting the 
deadline. As authorized by the Act, the NRC issued a waiver of the 
requirements to allow States to continue to regulate this material 
under their existing programs until the Commission adopts regulations 
and implements a plan for the orderly transition of the jurisdiction of 
the material to NRC regulatory oversight.
    <bullet> The NRC has been taking action to implement key provisions 
of the Act that enhance our capabilities by authorizing the NRC to 
recover its costs from other government agencies through user fees, 
permanently extending the NRC's authority to collect 90 percent of its 
budget authority through fees, eliminating NRC's antitrust reviews for 
new utilization or production facility applications, and clarifying 
that the existence of an organizational conflict of interest does not 
bar the NRC from entering into a contract with a DOE laboratory under 
certain circumstances.
    <bullet> The NRC is taking action to implement all of the human 
capital initiatives in the Act, such as the pension offset provision, 
to enhance the NRC's ability to maintain and improve its regulatory 
expertise.
    <bullet> On January 31, 2006, the NRC issued a Confirmatory Order 
to the licensee for the Indian Point Nuclear Power Plant to implement 
the provision concerning backup power for certain emergency 
notification systems.
    <bullet> The NRC issued a grant to the National Academy of Sciences 
(NAS) in January 2006, to assess whether there are other processes 
which either can replace radiation sources with economically and 
technically appropriate alternatives or can use radiation sources that 
pose a lower risk to the public. As provided by the Act, the NRC plans 
to submit the results of this study to Congress in August 2007.
    <bullet> The NRC continues to exercise strong oversight of security 
at nuclear power plants, which includes force-on-force exercises for 
reactor licensees at least once every 3 years as required by the Act, 
and will provide its first annual report to Congress on the security 
evaluations before the end of FY 2006.
    <bullet> On November 7, 2005, the NRC issued for public comment a 
proposed rule addressing the Design Basis Threat. Congress directed the 
NRC to consider 12 factors in developing the DBT rule, and the 
Commission has requested comments on those factors. A final rule is 
expected by February 2007.
    <bullet> In July 2005, the Commission published proposed 
regulations that would establish a nationwide mandatory tracking system 
(National Source Tracking System, or NSTS) for Category 1 and 2 
radioactive sources. The final rule is expected to be issued in August 
2006.

    Several provisions of the Act relate to the export or import of 
Atomic Energy Act material and equipment. Some of these provisions were 
satisfied by a final rule that was issued on July 1, 2005, which 
provided additional controls on the import and export of radioactive 
sources. The NRC anticipates issuing in Spring 2006 a final rule to, 
among other things, revise the regulations regarding the export of HEU 
for medical isotope production. Additionally, the NRC expects to 
publish in Spring 2006 a proposed rule addressing those classes of 
individuals subject to background check requirements for import or 
export shipments.
    The new Task Force on Radiation Source Protection and Security 
convened in the fall of 2005 and included two additional entities whose 
participation was not mandated in the Act--the Department of Health and 
Human Services and the White House Office of Science and Technology 
Policy. On January 11, 2006, the NRC published a Federal Register 
notice requesting public comment on major issues before the Task Force. 
A Task Force report will be delivered to Congress and the President in 
August 2006.
    Those I mentioned are just a few of the activities we have 
undertaken since the passage of the Energy Policy Act. Let me say a few 
words about ongoing activities in the areas of new reactor licensing, 
human capital, and other core Agency activities.

                         NEW REACTOR LICENSING

    The Commission's Strategic Plan includes the Agency objective to:

        Enable the use and management of radioactive materials and 
        nuclear fuels for beneficial civilian purposes in a manner that 
        protects public health and safety and the environment, promotes 
        the security of our nation, and provides for regulatory actions 
        that are open, effective, efficient, realistic, and timely.

    Consistent with this objective and its statutory responsibility, 
the NRC has been conducting reviews of new plant licensing related 
applications, including early site permit and design certification 
applications. Also consistent with this objective, the NRC is preparing 
for the significant workload to review combined license (COL) and other 
new plant licensing related applications that are currently being 
projected by the nuclear industry.
    To date, the NRC has received three early site permit applications 
for sites in Virginia, Illinois, and Mississippi that currently have 
operating reactors. The NRC staff has issued three safety evaluation 
reports and three draft environmental impact statements for public 
comment, although additional work is being performed in connection with 
one application that has recently been significantly revised by the 
applicant. The adjudicatory proceedings associated with the early site 
permit applications are currently ongoing. These ESP reviews are first-
of-a-kind and have identified numerous lessons learned for both the NRC 
and industry, which will be used to improve new reactor licensing 
processes in the future. The NRC is expecting an additional ESP 
application to be submitted during the summer of 2006. The NRC is also 
currently reviewing the General Electric Economic Simplified Boiling 
Water Reactor design certification application, is conducting pre-
application activities for Areva's U.S. Evolutionary Power Reactor 
design, and is also conducting some activities for three additional 
reactor designs.
    The NRC is preparing for the increasing number of projected new 
plant licensing applications. Last year at this time, the NRC had been 
notified of three potential COL applications in the next few years. 
Today, the number of expected COL applications is 11, and continues to 
increase. Some of these applications are expected to reference designs 
already certified, while others are expected to reference designs that 
are still under NRC review for certifications. We continue to assess 
our resource needs in light of the very substantial increase in the 
number of anticipated COL applications and related work.
    In order to allow for the review of multiple COL applications in 
parallel, the staff is considering a number of steps and planning to 
implement a design-centered approach. Using this approach, the NRC 
staff would use a single technical evaluation to support multiple 
combined license applications for the same technical area of review, as 
long as the applications standardize the licensing basis to a level 
that would make this approach viable. Standardization is key to success 
of this approach.
    In addition, the Commission recently approved a proposal to revise 
10 CFR Part 52, which contains the requirements for Early Site Permits, 
Standard Design Certifications, and Combined Licenses for nuclear power 
plants, to clarify it and enhance its usability. The proposed rule 
incorporates the lessons learned from previous regulatory reviews to 
enhance regulatory predictability at the COL stage. Furthermore, in the 
Part 52 rulemaking, the Commission is soliciting comments on an 
approach that would facilitate amendments to design certification rules 
after the initial certification. With such a provision, a detailed 
standard certified design would be able to incorporate additional 
features that are generic to the design and thereby encourage further 
standardization. Also, changes to the limited work authorization 
process will be considered. The NRC staff is working to provide a final 
rule in October 2006 for Commission consideration.
    The Commission and the NRC staff continue to prepare the Agency for 
the significant workload in the area of new reactor licensing. The NRC 
understands and accepts its share of this responsibility; however, a 
successful outcome depends on many factors, including the quality of 
the applications submitted. With the support of Congress, we will be 
ready to carry out our responsibilities and meet the challenges we will 
face.

                    HUMAN CAPITAL AND SPACE PLANNING

    As you know, the NRC's ability to accomplish its mission depends on 
the availability of a highly skilled and experienced work force. In a 
recent ranking of the Top 10 Federal Work Places, by the Partnership 
for Public Service and American University's Institute for the Study of 
Public Policy Implementation, the NRC was designated the third best 
place to work in the Federal government. In addition, the NRC was 
ranked first among those surveyed who are under 40 years of age. 
Nonetheless, the NRC continues to be challenged by the substantial 
growth in new work at a time when experienced staff are increasingly 
eligible to retire. To address these challenges, the Agency has human 
capital strategies to find, attract, and retain critical-skill staff, 
and a space acquisition plan to accommodate these additional employees.
    The NRC is aggressively recruiting a mixture of recent college 
graduates and experienced professionals to meet the Agency's hiring 
challenges. The current projection is that over 400 additional FTEs 
will be devoted to new work by FY 2008. The Commission is striving to 
hire approximately 350 new employees in FY 2006 to cover the loss of 
personnel and to support growth in new work. The Agency expects to have 
a critical hiring need for the next five years.
    The NRC closely monitors its voluntary attrition rate including 
retirements, which has historically been below six percent, and will 
continue to do so as the attrition rate could potentially increase as 
industry competition for skilled individuals increases and as older 
staff retire. The Agency uses a variety of recruitment and retention 
incentives to remain competitive with the private sector. We continue 
to experience success utilizing the provisions of the Federal Workforce 
Flexibility Act of 2004 and the Energy Policy Act of 2005. The NRC has 
budgeted for continued and increasing use of these recruitment and 
retention tools in the coming years.
    Our steady growth and accelerated hiring program has exhausted 
available space at our Headquarters buildings. We have developed 
strategies to obtain adequate space to accommodate our new hires. We 
are creating additional workstations within our Headquarters buildings, 
including temporarily building workstations in conference rooms, and we 
are moving our Professional Development Center off-site to use the 
space it currently occupies for new hires. We are also seeking 
additional office space to support the expected growth of the Agency.
    The NRC will be continually challenged to maintain adequate 
infrastructure and the personnel needed. However, the Commission 
believes the Agency is poised to meet these challenges successfully 
through the ongoing human capital planning, implementation, and 
assessment process, the space planning program, and the various tools 
provided by the Energy Policy Act of 2005.
NRC Safety Culture and Climate Surveys
    An Agency's organizational culture is a key to the accomplishment 
of its mission. In 2005, the Inspector General conducted a survey of 
NRC employees to assess the current safety culture and climate of the 
Agency's workforce. Approximately 70 percent of the NRC staff 
participated in the survey. The NRC improved its scores in virtually 
every category from the results of a similar survey conducted in 2002. 
These significant accomplishments included the areas of Communication 
and NRC Mission and Strategic Plan. Recruiting, Development & Retention 
and Management Leadership also showed significant improvement since 
2002. In addition, the survey results revealed areas for continuing 
improvement, including workload and stress, knowledge transfer, and the 
use of the Differing Professional Opinion program.

                        REACTOR SAFETY PROGRAMS

    The Agency's overall reactor safety functions are executed in a 
variety of ways, including licensing, inspection and oversight, 
rulemaking, enforcement, and investigations. Reactor safety programs 
ensure that safety of operating nuclear power plants is maintained, and 
the NRC is continually evaluating and improving these programs. NRC 
safety programs include evaluating past events, identifying lessons 
learned from those events, and partnering with stakeholders to increase 
their participation in the regulatory process.
Reactor Oversight Process
    The Commission believes that the revised Reactor Oversight Process 
(ROP), which was implemented in April 2000, has brought a more 
disciplined and objective approach to oversight of nuclear power 
plants. Plants continue to receive a level of oversight commensurate 
with their performance. The results of NRC oversight activities, 
including performance indicators, inspection findings, and the current 
assessment of overall performance for each reactor are publicly 
available on the NRC's web site. The NRC staff continues to enhance the 
process through stakeholder participation and as a result of internal 
reviews, feedback, and lessons learned. For example, the NRC has begun 
conducting revised engineering inspections and continues to focus on 
improving the timeliness of the significance determination of 
inspection findings. In addition, the NRC is assessing the use of the 
ROP for new reactor designs.
Safety Culture
    Last year, I discussed an initiative to address the management of 
safety and safety culture issues by licensees and to develop better 
methods, tools, and training for the NRC's inspection staff. I would 
like to update you on this initiative and on the NRC's recent 
accomplishments.
    The NRC issued generic guidance for establishing and maintaining a 
safety conscious work environment, including guidance on effective 
processes to encourage and address concerns and tools to assess the 
work environment. This guidance reiterates the NRC's expectation that 
senior licensee management will be involved in detecting and preventing 
retaliation.
    The NRC staff is also enhancing the ROP to address safety culture 
more fully. The NRC staff continues to work with external stakeholders 
and has developed an approach to enhance inspection and assessment 
programs to better align the ROP with those aspects of plant 
performance that are important to safety culture. The approach provides 
a means for the NRC to evaluate licensee actions to address identified 
performance issues which may be indicative of safety culture weaknesses 
to use a graded approach for having a licensee perform an evaluation or 
obtain an independent assessment of safety culture at the plant if 
needed, and to follow up with an independent NRC evaluation of safety 
culture for plants that have experienced a significant deterioration in 
performance. The NRC staff plans to complete revisions to the 
inspection and assessment programs in May 2006 and will be conducting 
training over the next few months for NRC inspectors and managers in 
order to support implementation of the safety culture-related 
enhancements on July 1, 2006.
Radiological Protection
    As part of NRC's requirements for operating a nuclear power plant, 
licensees must keep releases of radioactive material to unrestricted 
areas during normal operation as low as reasonably achievable and 
comply with radiation dose limits for the public. In addition, NRC 
regulations require licensees to have various effluent and 
environmental monitoring programs to ensure that the impacts from plant 
operations are minimized. The permitted effluent releases result in 
very small doses to members of the public living around nuclear power 
plants. The NRC oversees these licensee programs to ensure adequate 
protection of public health and safety and the environment. Recently, 
the NRC staff has been monitoring instances of, and licensee actions to 
address, groundwater contamination involving tritium at operating and 
shutdown power reactors undergoing decommissioning. In addition, the 
NRC is in the process of establishing a tritium lessons learned task 
force to review these incidents and identify lessons learned from them 
to determine what, if any, changes are needed.
Operating Reactor Licensing Programs
    The reactor licensing program, coupled with a strong oversight 
program, ensures that operating nuclear power plants maintain adequate 
protection of public health and safety. NRC licensing activities 
include using state-of-the-art science, engineering, and risk 
assessment methods and information from operating experience to 
establish and refine reactor safety standards, to promulgate the 
related rules, issue orders and generic communications as appropriate, 
and to review applications consistent with these requirements. In FY 
2005, NRC staff completed 1,609 licensing actions associated with the 
104 licensed reactors.
    In 2005, the NRC reviewed and approved license renewal applications 
for 9 reactors, bringing the total number of renewed reactor licenses 
to 39 since 2000. Twelve additional license renewal applications are 
currently under review, five of which are on schedule to be completed 
in this fiscal year. Approximately one-half of the reactors in the 
United States have either received or are currently under review for a 
reactor license renewal. The NRC anticipates that the remaining 
reactors currently licensed to operate will apply for renewal of their 
licenses and the NRC staff will continue to face a significant workload 
in this area for the next several years.
    To date, the NRC has completed reviews of and approved 108 power 
uprate applications, which have safely added capacity equivalent to 
more than four large nuclear power plants. Currently, the NRC staff is 
reviewing 10 power uprate applications and expects to receive 
approximately 7 additional applications through FY 2007.
    An extended power uprate increases the reactor's power by up to 20 
percent. In some Boiling Water Reactors that have been implemented 
extended power uprates, the NRC has observed steam dryer cracking and 
flow-induced vibration damage in the steam and feedwater systems. The 
NRC staff has conducted extensive inspections at the affected plants 
and has held technical meetings with the affected licensees to discuss 
the causes of the adverse flow effects and to evaluate the corrective 
actions. The NRC will continue to monitor plant-specific and industry 
actions to resolve these issues and has factored this experience into 
reviews of pending power uprate applications.

                                SECURITY

    The NRC continues to evaluate and inspect security plans, 
procedures, and systems to ensure that acceptable security measures 
remain in place to protect the health and safety of the public. The NRC 
also continues to conduct the force-on-force exercise inspection 
program to evaluate licensee's defensive capabilities and identify 
areas for improvement. In the materials arena, the NRC continues to 
devote considerable effort to determine what additional actions should 
be used to enhance the security of radioactive material of greatest 
concern. In addition, the NRC maintains close communication and 
coordination with the Department of Homeland Security and other 
agencies in the intelligence and law enforcement communities. As 
requested in your letter of January 10, 2006, attached as an addendum, 
is NRC's report on research and test reactors.
    The NRC has three important security rulemakings planned or under 
way to codify security requirements for power reactors. The first is 
the rulemaking on the design basis threat for radiological sabotage. 
The comment period for the proposed rule ended recently and a final 
rule will be issued later this year. The second rulemaking will amend 
the power reactor security regulations to align them with the series of 
orders the Commission issued following September 11, 2001, and to 
ensure that safety-security interface issues are properly considered in 
plant operations. The Commission intends to issue a final rule as early 
in calendar year 2007 as possible. Finally, the Commission's 
expectations on security design for new reactor licensing activities 
are scheduled to be codified in a third rulemaking by September 2007. 
The expectation of the Commission is that the lessons learned by the 
Agency and reactor licensees pre- and post-9/11 should be considered by 
the vendors at the design stage. We have learned much and I believe 
improvements can be realized without major design or construction 
modifications.
Reactor Security Assessments
    As Congress is aware, shortly after the September 11 attacks, the 
NRC required nuclear power plant licensees to implement mitigative 
strategies using existing or readily available resources to address the 
loss of large areas of any plants due to explosion or fire. At about 
the same time, the NRC initiated the performance of detailed 
engineering studies of representative nuclear power plants that 
assessed the damage that could be caused to the plants if large 
commercial aircraft were employed as weapons. Based on the differences 
in plant designs and capabilities found by these studies, the NRC is 
conducting evaluations at each U.S. nuclear power plant individually to 
identify specific methods that could be used to prevent or delay fuel 
damage, prevent or delay containment failure, or reduce or prevent 
releases of fission products. To expedite the studies, the NRC 
performed the spent fuel pool assessments completely independent of the 
reactor core and containment assessments.
    The NRC has completed site-specific spent fuel pool assessments 
that addressed the recommendations of the National Academy of Sciences' 
study on spent fuel pools. Plant-specific reports were issued in 
December 2005 to all licensees, listing mitigation strategies 
identified during the assessments. As a result of these assessments, 
the industry proposed steps to ensure that plants have specific 
independent capabilities to mitigate spent fuel pool events. The NRC 
staff is evaluating the industry proposal. The NRC will determine if 
further actions are necessary after evaluating plant-specific details 
concerning licensees' implementation of the proposal.
    In addition, we continue to enhance mitigation strategy 
capabilities by conducting plant-specific assessments of strategies for 
core and containment events. The NRC's assessments include an audit of 
each licensee's effort to identify mitigation strategies as well as an 
independent evaluation performed by NRC staff and contractors. These 
assessments began in September 2005, and will be completed in the 
spring of 2006. To date, the results of these assessments have 
validated the actions the NRC has taken to enhance the security and 
safety of the plants and have confirmed the robustness of these 
facilities. After all the assessments are completed and all strategies 
have been identified, the Commission will consider lessons learned 
across the Nation and determine if additional actions are warranted.
Materials Security
    NRC continues to work with the DOE, DHS, Department of 
Transportation, Department of State, and the IAEA to prevent the 
malevolent use of radioactive materials. Actions the Commission has 
taken in 2005 include the following: (1) issuance of additional 
security measures for shipments of radioactive materials in quantities 
of concern from power reactors, research and test reactors, and 
materials licensees; (2) issuance, along with the Agreement States, of 
additional security and material control enhancements for other 
industrial, medical and research licensees; (3) publishing a proposed 
rule to amend NRC's regulations to implement a National Source Tracking 
System, to replace the interim database; and (4) revision of 
regulations regarding the import and export of radioactive materials to 
be consistent with the IAEA's Code of Conduct.

                           MATERIALS PROGRAM

    The Agency's overall materials safety functions are executed in a 
variety of ways, including licensing, inspection and oversight, 
rulemaking, enforcement, and investigations. The NRC, in partnership 
with the 34 Agreement States, conducts comprehensive programs to ensure 
the safe use of radiological materials in a variety of medical, 
industrial, and research settings. In 2005, the NRC had a number of 
significant accomplishments.
    On June 15, 2005, the NRC staff issued the safety evaluation report 
and final environmental impact statement on the Louisiana Energy 
Services license application for the National Enrichment Facility, a 
gas centrifuge uranium enrichment facility, proposed to be located in 
Eunice, New Mexico.
    In September 2005, the NRC published a proposed rule to amend its 
Yucca Mountain regulations to reflect the new proposed Environmental 
Protection Agency (EPA) standards. The NRC staff has continued its 
interactions with DOE on a variety of technical issues related to 
recently announced design changes and quality assurance program issues.
    During FY 2005, the NRC oversaw decommissioning activities at 
numerous complex sites and power reactor sites. The NRC terminated six 
complex materials licenses, two uranium mill licenses, and two 
operating reactor licenses. In addition, the NRC approved the license 
termination plans for the Big Rock Point and Yankee Rowe power reactor 
sites. The NRC's review of the license termination plans ensures that 
the procedures and practices proposed by the site operators will 
protect the public health and safety and that the proposed 
decommissioning activities will make the sites suitable for release and 
license termination.
    On September 9, 2005, the Commission concluded the Agency's 
adjudication over the Private Fuel Storage LLC (PFS) application to 
construct and operate an independent spent fuel storage installation 
and authorized the Agency staff to issue a license upon resolution of 
any outstanding issues. One matter that remained to be resolved was 
completion of consultations with other Federal and state agencies 
concerning the identification and protection of historic sites. After 
coordinating with the Advisory Council on Historic Preservation (ACHP), 
the NRC issued a license to PFS on February 21, 2006. The license 
contains a condition requiring PFS to first arrange adequate funding 
for the project. Additionally, PFS must obtain the requisite approvals 
from other agencies.

                         INTERNATIONAL PROGRAM

    The NRC also carries out an active international program of 
cooperation and assistance involving 38 countries with which it 
exchanges civilian nuclear safety information. This program provides 
public and occupational health and safety information and assistance to 
other countries to develop and improve regulatory organizations and 
overall nuclear safety and security worldwide. The NRC continues to 
strongly support multinational programs for enhancing the level of 
nuclear safety worldwide and serves in leadership roles on technical 
committees that develop and monitor best practices. In addition, the 
NRC supports implementation of certain treaties and conventions that 
encourage the wider adoption of safety standards and practices. It is 
worth noting that the NRC proposed an initiative, the multinational 
design approval program, that will allow several regulatory authorities 
to work together in reviewing new reactor designs. In addition, the NRC 
amended its regulations in 10 CFR Part 110 concerning the export and 
import of radioactive materials to require certain licensees previously 
operating under general licenses to file for specific export and import 
licenses. In accordance with the revised regulations, licensees will 
also have to provide advance notification to the NRC before shipment 
and will need to verify the recipient facility's licensing status.

                   AGENCYWIDE LESSONS LEARNED PROGRAM

    As previously reported, we have undertaken a critical review of our 
programmatic and oversight activities to evaluate our own actions 
associated with the reactor vessel head degradation at Davis-Besse. A 
significant finding in the NRC Davis-Besse Lessons Learned Task Force 
Report was that some of the issues identified were similar to problems 
previously identified. The report recommended that the staff conduct an 
effectiveness review of actions taken in response to past lessons 
learned. NRC established an Effectiveness Review Lessons Learned Task 
Force (ERLLTF) and the task force issued its report on August 2, 2004. 
The ERLLTF found that some corrective actions from previous lessons 
learned had not been effective and that the root causes of the 
ineffective corrective actions were the lack of a lessons learned 
program, the lack of effectiveness reviews, the lack of a centralized 
tracking system, and weaknesses in closeout practices.
    In response to the ERLLTF report, the Executive Director for 
Operations chartered a team on January 24, 2005 to develop an 
agencywide lessons learned program that would capture and address 
significant Agency lessons learned reports and provide reasonable 
assurance that the problems identified will not recur. The team has 
completed development of a preliminary program and will be piloting the 
program this spring.

                                 BUDGET

    In order to meet new challenges while at the same time continuing 
to discharge our statutory responsibilities, the Agency's financial 
needs have increased to meet the expanded workload for FY 2007. Again 
we appreciate your support for the additional funding for FY 2006. The 
FY 2006 appropriation provided $41 million in funds above the 
President's budget request. Of this amount, $20 million will be used in 
support of new reactor licensing and $21 million will be used 
principally in support of nuclear security initiatives. Additional 
funds have been allocated to the ongoing nuclear power plant security 
assessments and other near term security-related activities. Funding is 
being used for security initiatives such as site specific assessments 
of spent fuel pools and core and containment analysis. Funds also 
support the development of security rulemakings, regulatory guidance 
for new reactor security licensing, workshops and policy position 
documents to improve transportation regulations and support to the 
Department of Homeland Security's Comprehensive Reviews.
    The President's FY 2007 budget provides $777 million for the NRC, 
which is an increase of $35 million (approximately 5 percent) above FY 
2006. The budget request includes an increase of approximately $22 
million for the Nuclear Reactor Safety program, which includes the new 
reactor licensing work, $21 million for the Agency's infrastructure and 
support activities, and $10 million to fund Federal pay raises and 
other non-discretionary compensation and benefit increases. These 
increases are offset by a decrease of approximately $18 million for the 
Nuclear Materials and Waste Safety program due to the delay in the 
Department of Energy's application for the high-level waste repository 
at Yucca Mountain, and other program changes.

                               CONCLUSION

    The Commission continues to be committed to ensuring adequate 
protection of public health and safety, promoting the common defense 
and security, and protecting the environment in the application of 
nuclear technology for civilian use. We understand the challenges we 
face in the new reactor licensing and human capital areas and will 
continue to work with the committee as we move forward. We continue to 
build on our work in the area of security to enhance the safety and 
security of the American public. The Commission will ensure that the 
Agency is discharging its responsibilities as mandated by Congress in 
an effective, efficient, and timely manner.
                                 ______
                                 
    Addendum to NRC's Testimony for March 9, 2006 Oversight Hearing

                       RESEARCH AND TEST REACTORS

    The NRC has licensed 49 research and test reactors (RTRs), of which 
33 are operating. These 33 RTRs are used to train the next generation 
of nuclear professionals, and to perform research and development 
activities in many fields of science. The NRC licenses RTRs under the 
provisions of the Atomic Energy Act of 1954, which directs the 
Commission to impose only the minimum amount of regulation as the 
Commission finds will permit the Commission to fulfill its obligations 
under this Act to promote the common defense and security and to 
protect the public health and safety and will permit the conduct of 
widespread and diverse research and development.
    The NRC has always required RTRs to have security plans or 
procedures in place to detect, deter, assess, and respond to 
unauthorized activities. These plans use a defense in-depth philosophy, 
and reflect a graded approach that considers the attractiveness of the 
reactor fuel as a target, and the risk of radiological release. The NRC 
reviews and approves these plans.
    Between 2002-2004, NRC issued Confirmatory Action letters (CALs) to 
all but 7 RTRs to formalize the commitments made to implement previous 
compensatory measures. Seven RTRs did not receive CALs because of the 
very low radiological risk associated with these facilities. The 
compensatory measures taken by the RTRs addressed vehicle threats, 
insider threats, and external land-based threats. The NRC has verified 
the implementation of these measures through on-site inspections and 
evaluations.
    The NRC conducted security assessments of most RTRs to evaluate the 
facilities for theft or diversion of special nuclear material and 
radiological sabotage. These assessments used a three-phase approach 
which included screening of the threat scenarios, assessments of RTR 
security measures and detailed consequence assessments. The results of 
these security assessments indicate that no credible reactor sabotage 
would result in a prompt fatality to a member of the public and that it 
is highly unlikely that a formula quantity of highly enriched uranium 
can be stolen or diverted for malevolent purposes. These security 
assessments also found that theft of irradiated fuel for use as a 
radiological dispersal device or as a radiological exposure device is 
unlikely to result in prompt fatalities to members of the public. The 
security assessments for RTRs concluded that no additional security 
requirements are currently needed. From these security assessments, the 
NRC identified generic best practices which were shared with all RTR 
licensees and many of the licensees voluntarily incorporated some of 
these best practices at their facilities. On October 7, 2005, the NRC 
issued requests for additional information (RAIs) for licensees to 
reevaluate implementation of post 9/11 security measures. The NRC will 
continue to verify that security requirements and commitments continue 
to be implemented and to work with DHS, DOE, and the National 
Organization of Test Research and Training Reactors (TRTR) in a 
Government Coordinating Council (GCC) sub-council on RTRs to assist 
RTRs with security.
    The NRC assessed the potential security issues raised in the ABC 
``Prime Time'' telecast on October 13, 2005. All but one of the issues 
raised by ABC were determined to be appropriately addressed by 
applicable site security plans, procedures, and post 9/11 compensatory 
measures. One violation of security requirements was identified and 
processed in accordance with the NRC's Enforcement Policy and the 
Licensee has implemented appropriate corrective actions. The NRC 
determined that the conditions associated with the ABC identified 
issues were previously evaluated in the NRC's review and approval of 
RTR site security plans, procedures, and/or post 9/11 compensatory 
measures.

[GRAPHIC] [TIFF OMITTED] T2272.001

[GRAPHIC] [TIFF OMITTED] T2272.002

[GRAPHIC] [TIFF OMITTED] T2272.003

[GRAPHIC] [TIFF OMITTED] T2272.004

[GRAPHIC] [TIFF OMITTED] T2272.005

[GRAPHIC] [TIFF OMITTED] T2272.006

[GRAPHIC] [TIFF OMITTED] T2272.007

[GRAPHIC] [TIFF OMITTED] T2272.008

[GRAPHIC] [TIFF OMITTED] T2272.009

[GRAPHIC] [TIFF OMITTED] T2272.010

[GRAPHIC] [TIFF OMITTED] T2272.011

[GRAPHIC] [TIFF OMITTED] T2272.012

[GRAPHIC] [TIFF OMITTED] T2272.013

[GRAPHIC] [TIFF OMITTED] T2272.014

[GRAPHIC] [TIFF OMITTED] T2272.015

[GRAPHIC] [TIFF OMITTED] T2272.016

[GRAPHIC] [TIFF OMITTED] T2272.017

[GRAPHIC] [TIFF OMITTED] T2272.018

[GRAPHIC] [TIFF OMITTED] T2272.019

[GRAPHIC] [TIFF OMITTED] T2272.020

[GRAPHIC] [TIFF OMITTED] T2272.021

[GRAPHIC] [TIFF OMITTED] T2272.022

[GRAPHIC] [TIFF OMITTED] T2272.023

[GRAPHIC] [TIFF OMITTED] T2272.024

[GRAPHIC] [TIFF OMITTED] T2272.025

[GRAPHIC] [TIFF OMITTED] T2272.026

[GRAPHIC] [TIFF OMITTED] T2272.027

[GRAPHIC] [TIFF OMITTED] T2272.028

  

                      <all>

</pre></body></html>
